 AUDIT OF THE UNITED STATES 

     MARSHALS SERVICE 

ANNUAL FINANCIAL STATEMENTS 

     FISCAL YEAR         2013 

      U.S. Department of Justice 

    Office of the Inspector General 

             Audit Division 


          Audit Report 14-11 

            February 2014 

        AUDIT OF THE UNITED STATES MARSHALS SERVICE

               ANNUAL FINANCIAL STATEMENTS

                      FISCAL YEAR 2013


                 OFFICE OF THE INSPECTOR GENERAL

                    COMMENTARY AND SUMMARY


       This audit report contains the Annual Financial Statements of the United
States Marshals Service (USMS) for the fiscal years (FY) ended September 30,
2013, and September 30, 2012. Under the direction of the Office of the Inspector
General (OIG), KPMG LLP performed the USMS’s audit in accordance with auditing
standards generally accepted in the United States of America. Effective for
FY 2013, auditing standards generally accepted in the United States of America use
the term “unmodified” opinion instead of “unqualified” opinion. The definition of the
two terms is substantially the same. An unmodified opinion means that the
financial statements are presented fairly, in all material respects, in accordance
with U.S. generally accepted accounting principles. The FY 2013 audit resulted in
an unmodified opinion on the financial statements. The FY 2012 financial
statements audit was performed by Cotton & Company LLP and resulted in an
unqualified opinion (OIG Audit Report No. 13-14).

       KPMG LLP also issued reports on internal control over financial reporting and
on compliance and other matters. The auditors identified two significant
deficiencies in the FY 2013 Independent Auditors’ Report on Internal Control over
Financial Reporting Based on an Audit of Financial Statements Performed in
Accordance with Government Auditing Standards. The significant deficiencies
related to inadequate controls over the procurement process and financial
reporting. The USMS did not have adequate controls over the procurement process
to consistently ensure that obligations, reported expenses, and accrued expenses
were complete, accurate, and recorded in accordance with the government financial
management requirements. Furthermore, existing controls relating to the review
and preparation of the financial statements and related notes were not adequately
designed at the appropriate level of precision to prevent a misstatement in the
financial statements or notes. The USMS management agreed with the report’s six
recommendations to improve internal controls over the procurement process and
financial reporting.

       No instances of non-compliance or other matters that are required to be
reported under Government Auditing Standards were identified during the audit in
the FY 2013 Independent Auditors’ Report on Compliance and Other Matters Based
on an Audit of Financial Statements Performed in Accordance with Government
Auditing Standards. Additionally, KPMG LLP’s tests disclosed no instances in which
the USMS financial management systems did not substantially comply with the
Federal Financial Management Improvement Act of 1996.




                                        -i­
       The OIG reviewed KPMG LLP’s reports and related documentation and made
necessary inquiries of its representatives. Our review, as differentiated from an
audit in accordance with Government Auditing Standards, was not intended to
enable us to express, and we do not express, an opinion on the USMS’s financial
statements, conclusions about the effectiveness of internal control, conclusions on
whether the USMS’s financial management systems substantially complied with the
Federal Financial Management Improvement Act of 1996, or conclusions on
compliance and other matters. KPMG LLP is responsible for the attached auditors’
reports dated December 3, 2013, and the conclusions expressed in the reports.
However, our review disclosed no instances where KPMG LLP did not comply, in all
material respects, with auditing standards generally accepted in the United States
of America.




                                        - ii ­
        AUDIT OF THE UNITED STATES MARSHALS SERVICE

               ANNUAL FINANCIAL STATEMENTS

                      FISCAL YEAR 2013


                              TABLE OF CONTENTS


                                                                                       PAGE


MANAGEMENT'S DISCUSSION AND ANALYSIS ................................................... 3


INDEPENDENT AUDITORS’ REPORTS


  REPORT ON THE FINANCIAL STATEMENTS .................................................. 19


  REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING BASED ON AN

     AUDIT OF FINANCIAL STATEMENTS PERFORMED IN ACCORDANCE WITH

     GOVERNMENT AUDITING STANDARDS ................................................... 23


  REPORT ON COMPLIANCE AND OTHER MATTERS BASED ON AN AUDIT OF 

     FINANCIAL STATEMENTS PERFORMED IN ACCORDANCE WITH

     GOVERNMENT AUDITING STANDARDS ................................................... 31


PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES


  CONSOLIDATED BALANCE SHEETS............................................................. 35


  CONSOLIDATED STATEMENTS OF NET COST ............................................... 36


  CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION...................... 37


  COMBINED STATEMENTS OF BUDGETARY RESOURCES ................................. 38


  NOTES TO THE FINANCIAL STATEMENTS .................................................... 39


REQUIRED SUPPLEMENTARY INFORMATION


  COMBINING STATEMENTS OF BUDGETARY RESOURCES................................ 62


OTHER INFORMATION


  COMBINED SCHEDULE OF SPENDING ......................................................... 67


APPENDIX


  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY

    OF ACTIONS NECESSARY TO CLOSE THE REPORT.................................... 71

This page intentionally left blank.
U.S. DEPARTMENT OF JUSTICE


UNITED STATES MARSHALS SERVICE


  MANAGEMENT’S DISCUSSION AND ANALYSIS

              (UNAUDITED)




                  -1-
This page intentionally left blank.




               -2-
                                          U.S. Department of Justice

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)


The United States Marshals Service (USMS) is the nation’s oldest Federal law enforcement agency
and operates under very broad statutory authorities (28 U.S.C. 564 and 566). These authorities
provide the USMS with a great deal of discretion in performing its complex missions. All of the
USMS duties and responsibilities emanate from these statutory authorities.

MISSION
The mission of USMS is to enforce Federal laws and provide support to virtually all elements of the
Federal justice system by providing for the security of Federal court facilities and the safety of
judges and other court personnel; apprehending fugitives; exercising custody of Federal prisoners
and providing for their security and transportation to detention facilities; executing Federal court
orders; managing and disposing of the assets seized and forfeited by Federal law enforcement
agencies; and assuring the safety of protected Government witnesses and their families. To execute
this mission, the USMS organizes its workload and allocates resources into five decision units:
   •	 Judicial and Courthouse Security – The USMS protects Federal judges, jurors, and other
      participants in the Federal judicial process. This mission encompasses personnel security
      (security protective detail for a judge or prosecutor) and building security (security
      equipment to monitor and protect a Federal courthouse facility). The USMS assesses and
      investigates all inappropriate communication and threats to the Federal judiciary. The
      USMS also participates on Joint Terrorism Task Forces and shares threat intelligence
      information with other agencies.
   •	 Fugitive Apprehension – The USMS is authorized to locate and apprehend Federal, state,
      and local fugitives both within and outside the U.S. under 28 U.S.C. 566(e)(1)(B). Fugitive
      apprehension includes warrants involving: escaped Federal prisoners; Federal probation,
      parole and bond default violators; and fugitives based on warrants generated during drug
      investigations. This mission also includes investigating and apprehending those who violate
      the Adam Walsh Child Protection and Safety Act.
   •	 Prisoner Security and Transportation – The USMS is responsible for processing
      prisoners in the cellblock, providing security for the cellblock area, transporting prisoners by
      ground or air, and inspecting non-Federal jails used to house Federal detainees. The USMS
      is responsible for producing in-custody prisoners for court proceedings, which involves
      moving prisoners between judicial districts and detention facilities.
   •	 Protection of Witnesses – The USMS provides for the security, health and safety of
      protected Government witnesses and their immediate dependents whose lives are in danger
      because of their testimony against drug traffickers, terrorists, organized crime members, and
      other major criminals.
   •	 Tactical Operations – The USMS conducts special missions in situations involving crisis
      response, homeland security, and other national emergencies requiring a coordinated tactical
      response.
Additionally, in support of the mission, the USMS administers the Department of Justice (DOJ) Asset
Forfeiture Program (AFP) by managing and disposing of properties seized and forfeited by Federal law
enforcement agencies (including Drug Enforcement Agency (DEA), Federal Bureau of Investigation
(FBI), Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), Food and Drug Administration
(FDA), and the U.S. Postal Inspection Service) and U.S. attorneys nationwide.



United States Marshals Service                 -3-
                                          U.S. Department of Justice

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)


USMS missions comprise crosscutting activities that are implemented throughout the country and
several foreign office locations. USMS missions correspond with all three DOJ strategic goals as
described in the DOJ Fiscal Years 2013-2017 Strategic Plan (Strategic Plan).

ORGANIZATION STRUCTURE
The USMS headquarters (HQ) is located in Arlington, Virginia, with 94 district offices operating in
over 400 Federal courts and other locations throughout the United States and its territories. The FY
2013 President’s Budget merged the Office of Federal Detention Trustee (OFDT) into the USMS
organizational structure. USMS designated OFDT to be aligned under the USMS’s Prisoner
Operations Division (POD) to better align detention resources with existing operations. The USMS
organizational chart and district office locations are contained in Attachments 1 and 2. Specific
courthouse locations can be found on the USMS internet web site at: www.usmarshals.gov. The
decentralized organizational structure ensures that the USMS is able to respond to law enforcement
challenges in an efficient and effective manner.

FINANCIAL STRUCTURE
The financial structure of the USMS is decentralized, allowing each district and HQ program office
to exercise control over its respective budgetary accounts. The Financial Services Division (FSD)
at HQ assists district and HQ program offices by providing oversight, monitoring of commitments,
obligations, payments, outlays, and budget allocations. The USMS reports on the following
accounts:
Salaries and Expenses (S&E) Appropriation
The USMS S&E Appropriation is used for necessary general operating expenses. This funding
encompasses payroll, rent, utilities, travel, supplies, and equipment purchases. Funding is
appropriated by Congress on an annual basis and, within the amounts made available to the USMS,
may include specific no-year or multi-year budget authority. Once enacted, funds are apportioned
by the Office of Management and Budget (OMB) and DOJ to the USMS.
Construction Appropriation
The Construction Appropriation is a no-year account that is appropriated annually to the USMS. In
fiscal year (FY) 2012, the USMS began using additional Southwest Border multi-year construction
funding. This funding is to plan, construct, renovate, equip, and maintain any space controlled,
occupied, or utilized by the USMS in U.S. courthouses and other buildings. Once enacted, funds
are apportioned by OMB and DOJ to the USMS.
Federal Prisoner Detention (FPD) Appropriation
The FPD Appropriation is a no-year account that is appropriated annually to the USMS beginning
FY 2013. The FY 2013 President’s Budget merged the Office of the Federal Detention Trustee
(OFDT) into the USMS. OFDT was established in 2003 as an oversight organization responsible
for coordinating detention and transportation requirements on behalf of the DOJ. This funding is
used for the care of Federal detainees in private, state and local facilities.
Justice Prisoner and Alien Transportation System Revolving Fund
The Justice Prisoner and Alien Transportation System (JPATS) was established in 1995 by
combining the aircraft fleets of several DOJ components. Initially this program was funded within
the USMS S&E Appropriation. In 1998, OMB established the JPATS Revolving Fund in order to


United States Marshals Service                 -4-
                                          U.S. Department of Justice

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)


finance flight operations and maintenance through customer funding rather than by direct
appropriations. The USMS transportation requirements are funded using the FPD Appropriation.
Allocation Transfer Authority from the Administrative Office of the U.S. Courts (AOUSC)
AOUSC receives an annual Court Security Appropriation that includes allocation transfer authority
to the USMS. AOUSC transfers funds to the USMS each year using a non-expenditure transfer
authorization (SF-1151).
The funds are used to pay the wages, supplies, and equipment for Court Security Officers (CSO)
who provide security at Federal courthouses and other facilities that have Federal court operations.
Funds are also used to obtain and install security equipment to screen and monitor visitors and
packages that enter Federal courthouses.

ANALYSIS OF FINANCIAL STATEMENTS
Assets: The USMS’s Consolidated Balance Sheet as of September 30, 2013, shows $917.7 million
in total assets, an increase of $7.9 million (0.9 percent) from the previous year’s total assets of
$909.8 million. The largest assets include Fund Balance with U.S. Treasury (FBWT) and General
Property, Plant, and Equipment in the combined amounts of $892.4 million and $754.1 million as of
September 30, 2013 and 2012, respectively. This comprised 97.3 percent and 82.9 percent of total
assets as of September 30, 2013 and 2012, respectively.
The FBWT represents all funds the USMS has on account with the U.S. Treasury to cover
expenditures and pay liabilities. These funds are expended to support numerous programs and
activities so that the USMS may accomplish its primary mission of protecting the Federal judicial
process.
The General Property, Plant, and Equipment net balance represents property and leasehold
improvement items with a cost basis greater than $25,000 ($100,000 for airplanes and leasehold
improvements) less accumulated depreciation/amortization. As of September 30, 2013, the General
Property, Plant, and Equipment net balance was $281.5 million. As of September 30, 2012, the
General Property, Plant, and Equipment net balance was $265.9 million.
Liabilities: Total USMS liabilities were $461.8 million as of September 30, 2013, a decrease of
$19.0 million (4.0 percent) from the previous year’s total liabilities of $480.8 million. The largest
liability is Accounts Payable with the Public, which equaled $213.2 million and $244.0 million, as
of September 30, 2013 and 2012, respectively. This comprised 46.2 percent and 50.7 percent of
total liabilities, as of September 30, 2013 and 2012, respectively. The decrease in payables is due to
efficiencies gained from the newly implemented Unified Financial Management System (UFMS),
which enhanced the ability to expedite the recording of transactions based on the receipt of goods
and payment processing.
Net Cost of Operations: The USMS’s Consolidated Statements of Net Cost present the gross and
net cost by strategic goal. The net cost of operations was $3,108.8 million for the year ended
September 30, 2013, an increase of $1,460.7 million (88.6 percent) from the previous year’s net
cost of operations of $1,648.1 million. The increase is attributed to the merger of OFDT with
USMS during FY 2013 where funding increased by $1,647.3 million. In addition to the change in
net cost of operations, costs for Strategic Goals 1 and 2 respectively increased during FY 2013;
however, this change is attributed to a change in methodology for aligning costs by Strategic Goals



United States Marshals Service                  -5-
                                           U.S. Department of Justice

                                         United States Marshals Service

                                  Management’s Discussion and Analysis (Unaudited)


due to enhanced functionality of the Unified Financial Management System (UFMS), which was
implemented during FY 2013.
Budgetary Resources: The USMS’s FY 2013 Combined Statements of Budgetary Resources
show $3,322.8 million in total budgetary resources, which remained stable with an increase of $36.2
million (1.1 percent) from the previous year’s total budgetary resources of $3,286.6 million.
Although OFDT merged with USMS during FY 2013, budgetary resources remained stable as the
merger increased direct funding, Appropriations by $1,647.3 million, but simultaneously decreased
reimbursable funding, Spending Authority from Offsetting Collections by relatively the same
amount.
Net Outlays: The USMS’s FY 2013 Combined Statements of Budgetary Resources show $2,976.5
million in net outlays, an increase of $1,303 million (77.9 percent) from the previous year’s total net
outlays of $ 1,673.5 million. The increase in net outlays is attributed to the transition of OFDT
funding from reimbursable to direct. During FY 2012, gross outlays related to OFDT were offset
by Actual Offsetting Collections, as the funding was reimbursable; however, during FY 2013,
OFDT funding is direct and thus outlays are not reduced.

                                  Table 1. Source of the USMS Resources
                                           (Dollars in Thousands)
                               Source                               FY 2013     FY 2012        Change%
    Earned Revenue                                              $       57,752 $ 1,543,645          (96%)
    Budgetary Financing Sources
      Appropriations Received                                        2,853,383    1,189,000          140%
      Appropriation Transferred-In/Out                                 436,713      416,211            5%
      Other Adjustments and Other Budgetary Financing Sources         (197,806)      (2,200)      (8891%)
    Other Financing Sources
      Transfers-In/Out Without Reimbursement                           1,670          58           2779%
      Imputed Financing from Costs Absorbed by Others                 41,674      51,770            (20%)
    Total                                                       $ 3,193,386 $ 3,198,484              (0%)




United States Marshals Service                     -6-
                                            U.S. Department of Justice

                                          United States Marshals Service

                                   Management’s Discussion and Analysis (Unaudited)


                                  Table 2. How USMS Resources are Spent
                                           (Dollars in Thousands)
                           Strategic Goal (SG)                       FY 2013      FY 2012      Change%
    SG 1: Prevent Terrorism and Promote the Nation's Security
    Consistent with the Rule of Law
                                                        Gross Cost $     80,269 $      4,794
                                                          Net Cost       80,269        4,794      1574%
    SG 2: Prevent Crime, Protect the Rights of the American
    People, and Enforce Federal Law
                                                        Gross Cost $    243,802 $     32,637
                                                          Net Cost      243,802       32,637       647%
    SG 3: Ensure and Support the Fair, Impartial, Efficient, and
    Transparent Administration of Justice at the Federal, State,
    Local, Tribal, and International Levels
                                                        Gross Cost    2,842,468    3,154,286
                                             Less: Earned Revenue        57,752    1,543,645
                                                          Net Cost    2,784,716    1,610,641        73%

                                               Total Gross Cost      3,166,539     3,191,717
                                    Less: Total Earned Revenue          57,752     1,543,645
                                   Total Net Cost of Operations $    3,108,787 $   1,648,072        89%

2013 FINANCIAL HIGHLIGHTS
The Strategic Plan includes three strategic goals, which reflect the goals, objectives, and areas of
emphasis of Attorney General Eric H. Holder, Jr. The DOJ Strategic Plan places a strong emphasis
on rule of law, international partnerships, reinvigorating the traditional missions of DOJ, and
restoring credibility to the Department. The USMS receives funding through direct appropriations
(S&E, Construction, and FPD), transfers from AOUSC and others, and a variety of reimbursable
sources that support the three strategic goals. During FY 2013, the implementation of the Unified
Financial Management System (UFMS) allowed for enhanced functionality that resulted in a
change in methodology for aligning costs by Strategic Goals in the reporting of the Net Costs of
Operations.
Strategic Goal 1, Prevent Terrorism and Promote the Nation’s Security Consistent with the
Rule of Law, includes activities that strengthen partnerships to prevent, deter, and respond to
terrorist incidents. The Goal 1 costs include payroll and operating costs for the Office of Protective
Intelligence and payroll costs for deputies working with the Federal Bureau of Investigation (FBI)
Joint Terrorism Task Forces. The USMS expended net program costs of $80.2 million for the FY
ending September 30, 2013 and $4.8 million for the FY ending September 30, 2012, on Strategic
Goal 1.
Strategic Goal 2, Prevent Crime, Protect the Rights of the American People, and Enforce
Federal Law, includes activities related to fugitive investigation and apprehension efforts that
prevent, suppress, and intervene in crimes against children. When the Adam Walsh Child
Protection and Safety Act was enacted in 2006, the Attorney General gave the USMS primary
enforcement responsibility. The Goal 2 costs include payroll and operating costs related to the Sex
Offender Apprehension Program (SOAP). The USMS expended net program costs of $243.8


United States Marshals Service                      -7-
                                          U.S. Department of Justice

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)


million for the FY ending September 30, 2013 and $32.6 million for the FY ending September 30,
2012, on Strategic Goal 2.
Strategic Goal 3, Ensure and Support the Fair, Impartial, Efficient, and Transparent
Administration of Justice at the Federal, State, Local, Tribal, and International Levels,
includes activities that protect the Federal judiciary and other participants in Federal proceedings,
and ensure the apprehension of fugitives from justice. The majority of USMS resources are devoted
to support Goal 3. The USMS expended net program costs of $2,784.7 million for the FY ending
September 30, 2013 and $1,610.6 million for the FY ending September 30, 2012, on Strategic Goal
3.
PERFORMANCE INFORMATION
Data Reliability and Validity
The USMS views data reliability and validity as critically important in the planning and assessment
of our performance. As such, this document includes a discussion of data validation, verification,
and any identified data limitations for each performance measure presented. The USMS ensures
that data reported meets the following criteria:
       At a minimum, performance data are considered reliable if transactions and other
       data that support reported performance measures are properly recorded, processed,
       and summarized to permit the preparation of performance information in accordance
       with criteria stated by management. Performance data need not be perfect to be
       reliable, particularly if the cost and effort to secure the best performance data
       possible will exceed the value of any data so obtained.




United States Marshals Service                 -8-
                                               U.S. Department of Justice

                                             United States Marshals Service

                                      Management’s Discussion and Analysis (Unaudited)


FY 2013 REPORT ON SELECTED RESULTS

STRATEGIC GOAL 3: Ensure and Support the Fair Impartial, Efficient, and Transparent
Administration of Justice at the Federal, State, Local, Tribal, and International Levels – 90
percent of USMS’s Net Costs support this Goal

      STRATEGIC OBJECTIVE 3.2:
                                                                     Number and Percent of Primary Federal Felony Fugitives
      Protect judges, witnesses, and                                               Apprehended or Cleared
      other participants in Federal                  40,000
      proceedings; apprehend fugitives;              35,000
                                                              52%             50%        53%          61%        52%          60%

      and ensure the appearance of                   30,000

      criminal defendants for judicial               25,000


      proceedings or confinement.




                                                                                                                                34,470
                                                                                                                   34,765
                                                                                                       34,691
                                                                                           34,629
                                                     20,000




                                                                32,860




                                                                               32,864
                                                     15,000


PROGRAM: Fugitive Apprehension                       10,000

                                                      5,000
Program                                                  0
                                                              Actual         Actual      Actual      Actual      Target       Actual

                                                              FY 09          FY 10       FY 11       FY 12       FY 13        FY 13

Background/Program Objectives: The                                            Actual Target

USMS has a long and distinguished             Data Definitions: A “primary” Federal felony fugitive means that the
history of providing assistance and           USMS has the lead apprehension responsibility. The USMS has
                                              primary jurisdiction to investigate fugitive matters involving:
expertise to other Federal, state, or local
law enforcement agencies in support of               •	 escaped Federal prisoners;
                                                     •	 probation, parole, and bond default violators;
violent crime reduction through fugitive             •	 warrants generated by the DEA and referred to the USMS;
investigations. These partnerships have              •	 any other Federal warrant referred by another Federal
evolved into the ultimate force                           agency.
multiplier in Federal law enforcement,        A fugitive is considered apprehended or cleared if the fugitive is
                                              arrested, has a detainer issued, or the warrant is dismissed. The
and allow our task forces to focus on the     percent cleared is calculated by dividing the number of cleared
most egregious state and local fugitives      fugitives by the sum of received fugitives (fugitives who had a warrant
and ensure the greatest protection to the     issued during the FY) and on-hand fugitives (fugitives who had an
                                              active warrant at the beginning of the FY).
Public by maximizing the effectiveness
                                              Data Collection and Storage: The USMS maintains Justice Detainee
of resources. The USMS uses a                 Information System 10 (JDIS) to collect warrant information,
combination of Regional Fugitive Task         investigative leads, and other criminal information. Upon receipt of a
Forces (RFTFs) and District Fugitive          warrant from a Federal judge, Deputy U.S. Marshals query the FBI’s
                                              National Crime Information Center (NCIC) and The International
Task forces (DFTFs) to form a national        Justice & Public Safety Network (Nlets) Integration through JDIS to
network responsible for the                   look for previous criminal information.
apprehension of violent fugitive felons.      Data Validation and Verification: Warrant and fugitive data are
The Presidential Threat Protection Act        verified according to NCIC policy and procedures. The USMS
                                              coordinates with district offices to verify that warrants are validated
of 2000 initially established the USMS        against the signed court records. The USMS is able to enhance
RFTF model. It consists of Federal,           fugitive investigative efforts by sharing data with other agencies, such
                                              as the Social Security Administration, DEA, Department of Agriculture,
state, and local law enforcement              Department of Defense, Department of State, and a variety of state
authorities in designated regions of the      and local task forces around the country.
United States, which are directed and         Data Limitations: JDIS data is accessible to all USMS districts and is
coordinated by the USMS, for the              updated as new information is collected and thus there may be a lag in
                                              reporting of data.
purpose of locating and apprehending
fugitives. In addition to domestic activities, the USMS is the lead agency responsible for


United States Marshals Service                            -9-
                                          U.S. Department of Justice

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)


extraditing (or deporting) U.S. fugitives that have fled to foreign countries back into this country.
The USMS also apprehends foreign fugitives within the U.S. who are wanted abroad.
As part of the fugitive apprehension mission, the USMS has been designated by the Attorney
General as the lead agency for locating and apprehending non-compliant sex offenders and others
who violate the provisions of the Adam Walsh Child Protection and Safety Act. A non-compliant
sex offender is any person who fails to comply with Federal registration requirements.
Performance Measure: Number and Percent of Primary Federal Felony Fugitives Apprehended or
Cleared
       FY 2009 Actual Performance:            32,860/52 percent

       FY 2010 Actual Performance:            32,864/50 percent

       FY 2011 Revised Performance:           34,629/53percent

       FY 2012 Revised Performance:           34,691/61 percent

       FY 2013 Target:                        34,765/52 percent

       FY 2013 Actual Performance:            34,470/60 percent


Discussion of FY 2013 Results: In FY 2013 the USMS cleared 34,470 primary federal fugitives,
295 less than the established target. The percent of primary Federal fugitives cleared exceeded the
target by 8 percent.
Current budget realities has a dampening effect on warrant generation as DOJ components arrest
fewer individuals. This decreases the number of fugitives received during the fiscal year and frees
up USMS resources to address cases active prior to the start of the fiscal year (on-hand). The
reduction in wanted primary Federal fugitives (received plus on-hand) increases the percent
apprehended or cleared.




United States Marshals Service                  - 10 -
                                          U.S. Department of Justice

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)


ANALYSIS OF SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE

USMS Major Systems
Justice Unified Telecommunications Network (JUTNet): The backbone infrastructure that
supports all the systems that operate within the USMS.
Unified Financial Management System (UFMS): The USMS migrated the Standardized
Tracking, Accounting and Reporting System (STARS) functions to the DOJ UFMS in FY 2013.
UFMS now serves as the primary financial management system of the USMS with integrated funds
control, financial management, and procurement functions in a single system.
JPATS Management Information System (JMIS): Draws information from multiple JPATS-
specific programs and databases in order to produce financial and managerial information.
Justice Detainee Information System 10 (JDIS 10): JDIS 10 combines all the information from
JDIS and Warrant Information Network (WIN) and contains the new module “Suspicious
Activities, Assaults, Incidents, and Deaths” module (SAID). JDIS 10 has been designed to
automate and integrate the information captured during the prisoner booking process and
subsequent USMS custody details, with warrant and investigative information utilized to track
fugitives and enables the use of new technology for photo and fingerprint capture equipment, while
continuing to support existing legacy equipment.

The Federal Managers’ Financial Integrity Act of 1982
The Federal Managers’ Financial Integrity Act of 1982 (FMFIA) provides the statutory basis for
management’s responsibility for and assessment of internal accounting and administrative controls.
Such controls include program, operational, and administrative areas, as well as accounting and
financial management. The FMFIA requires Federal agencies to establish controls that reasonably
ensure obligations and costs comply with applicable law; funds, property, and other assets are
safeguarded against waste, loss, unauthorized use, or misappropriation; and revenues and
expenditures are properly recorded and accounted for to maintain accountability over the assets.
FMFIA also requires agencies to annually assess and report on the internal controls that protect the
integrity of Federal programs (FMFIA § 2) and whether financial management systems conform to
related requirements (FMFIA § 4).
Guidance for implementing FMFIA is provided through OMB Circular A-123, Management’s
Responsibility for Internal Controls. In addition to requiring agencies to provide an assurance
statement on the effectiveness of programmatic internal controls and conformance with financial
systems requirements, the Circular requires agencies to provide an assurance statement on the
effectiveness of internal control over financial reporting. The Department requires components to
provide both of the assurance statements in order to have the information necessary to prepare the
agency assurance statements.

FMFIA Assurance Statement

The USMS management is responsible for establishing and maintaining effective internal controls
and financial management systems that meet the objectives of FMFIA. In accordance with OMB
Circular A-123, the USMS conducted its annual assessment of the effectiveness of internal controls


United States Marshals Service                - 11 -
                                          U.S. Department of Justice

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)


to support effective and efficient programmatic operations, reliable financial reporting, and
compliance with applicable laws and regulations (FMFIA § 2). The USMS also assessed whether
its financial management systems conform to financial system requirements (FMFIA § 4). Based on
the results of this assessment, the USMS can provide reasonable assurance that its internal control
over financial reporting was operating effectively as of June 30, 2013, and the assessment identified
no material weaknesses in the design or operations of the controls, with the exception of a
reportable condition summarized below.
USMS testing identified that improvements have been made in the area of controls over the
processing and recording of obligations, undelivered orders, and accounts payable. Deficiencies
were identified in the following areas, which, in the aggregate, are considered to be a reportable
condition:
   •	 Obligations are recorded accurately and timely in the financial system and amounts for
      invalid or residual balances are de-obligated on a timely basis
   •	 Accruals are accurately and timely recorded with a justified methodology.

Internal Controls Program
USMS management continues to support and commit resources to Departmental component internal
control programs. The objective of the USMS’s internal control program is to provide reasonable
assurance that operations are effective, efficient, and comply with applicable laws and regulations;
financial reporting is reliable; and assets are safeguarded against waste, loss, and unauthorized use.
USMS management identifies issues of concern through a network of oversight councils and
internal review teams. These include the USMS Office of Inspections, the Department’s OMB
Circular A-123 Senior Assessment Team, and the Justice Management Division’s Internal Review
and Evaluations Office, and Quality Control and Compliance Group. USMS management also
considers reports issued by the Office of the Inspector General in its evaluation of internal control.
The USMS commitment to management excellence, accountability, and compliance with applicable
laws and regulations is evidenced by efforts to establish reasonable controls and make sound
determinations on corrective actions.

Legal Compliance

Federal Financial Management Improvement Act of 1996 (FFMIA)
The Federal Financial Management Improvement Act of 1996 (FFMIA) was designed to improve
Federal financial and program managers’ accountability, provide better information for decision-
making, and improve the efficiency and effectiveness of Federal programs. FFMIA requires
agencies to have financial management systems that substantially comply with Federal financial
management systems requirements, applicable Federal accounting standards, and application of the
U.S. Standard General Ledger (USSGL) at the transaction level. Furthermore, the Act requires
independent auditors to report on agency compliance with the three requirements in the financial
statement audit report. The Federal Information Security Management Act (FISMA) states that to
be substantially compliant with FFMIA, there are to be no significant deficiencies in information
security policies, procedures, or practices.




United States Marshals Service                 - 12 -
                                          U.S. Department of Justice

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)


FFMIA Compliance Determination

The USMS’s financial management systems complied substantially with Federal financial
management systems requirements, applicable Federal accounting standards, and application of the
U.S. Government Standard General Ledger at the transaction level as of September 30, 2013.

POSSIBLE FUTURE EFFECTS OF EXISTING EVENTS AND CONDITIONS
USMS financial statements document existing, currently known events, conditions and trends.
Through the agency financial transactions, one can learn how the USMS has used its appropriated
resources to meet its strategic goals.
Current trends, including an increased focus on illegal immigration, the impact of the current
economic recession, a merger with the OFDT, and the implementation of UFMS may alter the need
and management of resources by the USMS in order to fulfill its law enforcement mission in FY
2013 and beyond.
Illegal Immigration
Illegal immigration has become a key issue across the country as many states have recently passed
laws that will increase the demand on law enforcement to apprehend and adjudicate persons living
in the country illegally. As a key agency involved in Southwest Border law enforcement activities,
the USMS will play a pivotal role in the evolving legal environment.
Current Economic Conditions
Due to operating mandatory spending cuts resulting from sequestration, the USMS experienced
reduced funding. The aforementioned budget constraints and the downturn in the economy may
place additional demands on USMS operations as fluctuations in criminal activity tend to occur in
times of economic distress.
OFDT Merger
The FY 2013 President’s Budget merged the OFDT into the USMS. The merger aligns the
accountability of resources with the responsibility of Federal detention operations under a single
command and control structure within the USMS leadership. The USMS will expand upon OFDT’s
successes in achieving efficiencies, cost reductions and cost avoidance in detention through process
and infrastructure improvements. The care of Federal detainees in private, state and local facilities
and the costs associated with these efforts will be funded from the FPD account within the USMS.
FPD’s resource needs are directly impacted by law enforcement and prosecutorial priorities.
Currently, the challenges facing law enforcement officials at the Southwest Border directly impact
the detention population. As Federal law enforcement officials increase their efforts to deal with
these issues, the USMS must ensure sufficient detention space is available to house and care for the
corresponding detainees. This objective is made even more challenging given the limited detention
space available in the Southwest Border region. USMS will continue to explore new approaches to
address the increase in the Federal detention population resulting from aggressive immigration and
other law enforcement initiatives.




United States Marshals Service                 - 13 -
                                          U.S. Department of Justice

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)


Financial Management
The USMS transitioned to UFMS during the first quarter of FY 2013. UFMS enables program
managers to streamline and standardize financial business processes that provide timely financial,
budget, and acquisitions data. UFMS provides real-time tracking of the status of funds, along with
the seamless integration of spending against budgets and plan. End-to-end visibility through the
entries request-to-pay lifecycle is significantly improved, as is monitoring and oversight of projects
by tracking costs incurred against reimbursable agreements. Productivity improvements are
realized with automated routing and approvals.

IMPROPER PAYMENTS IMPROVEMENT ACT OF 2002, AS AMENDED
In accordance with OMB Circular A-123, Appendix C, Requirements for Effective Measurement
and Remediation of Improper Payments, and the Departmental guidance for implementing the
Improper Payments Elimination and Recovery Act (IPERA), the Department implemented a top-
down approach to assess the risk of significant improper payments across all five of the
Department’s mission-aligned programs, and to identify and recapture improper payments through a
payment recapture audit program. The approach promotes consistency across the Department and
enhances internal control related to preventing, detecting, and recovering improper payments.
Because of the OMB requirement to assess risk and report payment recapture audit activities by
agency programs, the results of the Department’s risk assessment and recapture activities are
reported at the Department-level only.
In accordance with the Departmental approach for implementing IPERA, the USMS assessed its
activities for susceptibility to significant improper payments. The USMS also conducted its
payment recapture audit program in accordance with the Departmental approach. The USMS
provided the results of both the risk assessment and payment recapture audit activities to the
Department for the Department-level reporting in the FY 2013 Agency Financial Report.

LIMITATIONS OF THE FINANCIAL STATEMENTS
   •	 USMS financial statements have been prepared to report the financial position and results of
      agency operations, pursuant to the requirements of 31 U.S.C. 3515(b).
   •	 While the statements have been prepared from the books and records of the USMS in
      accordance with U.S. generally accepted accounting principles for Federal entities and the
      formats prescribed by OMB, the statements are in addition to the financial reports used to
      monitor and control budgetary resources, which are prepared from the same books and
      records.
   •	 The statements should be read with the realization that they are for a component of the U.S.
      Government, a sovereign entity.




United States Marshals Service                 - 14 -
                                                  U.S. Department of Justice

                                                United States Marshals Service

                                Management’s Discussion and Analysis (Unaudited) – Attachment 1





                            UNITEDSTATESMARSHALSSERVICE


                                                                 DIRECTOR

                         OF"'" OF E<lIAI.
                           SROMNT
                           0PI'0II1INTY                             I
                                                                  OEPUTY
                                                                 OIRECTOR

                                                                                         0fF1lE OF GEIEIIAl
                                                                                              0CUNSEl


                            OF"'" OF                                                         OFF1C!OF
                         ...........mt.S                                                   1&E<00NS



                    I                                                                                         I
            ~~IT        DlREtTtIl                                                                ASSOC~IT ~R£CTtIl
                                                            1") Us. ~.ARSHA1S
              roo OP£RAl10NS                                                                     roo AIlMMSTRATi()/

                     i-       """'"  SECUFI
                                 0I\ISI(l<                                                                    I-       TlIAIlOO IlMSOON



                                ",veSilClATlYE                                                                        1t.W..~ F£SOIM::ES
                     i-      OPfRATIOI<S OMSION                                                               I-           OMSION


                              W!Tl£SS SECI.MY                                                                            _TIO!f
                     i-           OMSION                                                                      I-     T£QfQ.OOY Dv.SIOM


                            Jt.01ICE """""'All)
                                                                                                                     /.M.~e.I£NT SUPPORT
                     i-     N..lN fAA'tSPORTA.TION
                                    ""lEV
                                                                                                              I-           OMSION


                             TACTl:Al.Clf""..PATlONS                                                                  A.'W(;W. SERY:CES
                     l-             OMSION                                                                    I-           OMSION



                     ...    ~OPERATIONS


                                    """"" *
                                                                                                              ....    ASSET FOfftIT\R.
                                                                                                                           OMSION



                                                       • NOTE: THE PI' 2013 PRESIDENT'S BUDGET MERG8) THE OFfiCE OF FEDERAL DETEN­
                                                       TION TRUSTEE (OFDT) INTO THE USIvE ORGANIZATIONAL STRUCTURE. USM> DESIG·
                                                       NATED OFDT TO BE I'1.IGNBl UNDER lHE USM5' PRISONER OPERATIONS DIVIS ION
                                                       (POD) IN ORDER TO BffiER ALIGN DETENTION RESOURCES WITH EXISTING OP ERA­
                                                       TIONS .




United States Marshals Service                                          - 15 -
                    U.S. Department of Justice

                  United States Marshals Service

  Management’s Discussion and Analysis (Unaudited) – Attachment 2



THE 94 USMS DISTRICT OFFICES





                       - 16 -
U.S. DEPARTMENT OF JUSTICE


UNITED STATES MARSHALS SERVICE


     INDEPENDENT AUDITORS’ REPORTS




                 - 17 -
This page intentionally left blank.




              - 18 -
                                    KPMG LLP
                                    Suite 12000
                                    1801 K Street, NW
                                    Washington, DC 20006




                      Independent Auditors’ Report on the Financial Statements


Inspector General
U.S. Department of Justice


Director
United States Marshals Service
U.S. Department of Justice


We have audited the accompanying consolidated financial statements of the U.S. Department of Justice
United States Marshals Service (USMS) which comprise the consolidated balance sheet as of
September 30, 2013, and the related consolidated statements of net cost, and changes in net position, and
the combined statement of budgetary resources (hereinafter referred to as “consolidated financial
statements”) for the year then ended, and the related notes to the consolidated financial statements.

Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these consolidated financial
statements in accordance with U.S. generally accepted accounting principles; this includes the design,
implementation, and maintenance of internal control relevant to the preparation and fair presentation of the
consolidated financial statements that are free from material misstatement, whether due to fraud or error.

Auditors’ Responsibility

Our responsibility is to express an opinion on these consolidated financial statements based on our audit.
We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 14-02 require that we plan and perform the audit to obtain reasonable assurance about whether the
consolidated financial statements are free from material misstatement.

An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
consolidated financial statements. The procedures selected depend on the auditors’ judgment, including the
assessment of the risks of material misstatement of the consolidated financial statements, whether due to
fraud or error. In making those risk assessments, the auditors consider internal control relevant to the
entity’s preparation and fair presentation of the consolidated financial statements in order to design audit
procedures that are appropriate in the circumstances, but not for the purpose of expressing an opinion on
the effectiveness of the entity’s internal control. Accordingly, we express no such opinion. An audit also
includes evaluating the appropriateness of accounting policies used and the reasonableness of significant
accounting estimates made by management, as well as evaluating the overall presentation of the
consolidated financial statements.




                                    KPMG LLP is a Delaware limited liability partnership,
                                    the U.S. member firm of KPMG International Cooperative
                                    (“KPMG International”), a Swiss entity.

                                                                    - 19 -
Independent Auditors’ Report on the Financial Statements
Page 2




We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion.

Opinion on the Financial Statements

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the U.S. Department of Justice United States Marshals Service as of
September 30, 2013, and its net costs, changes in net position, and budgetary resources for the year then
ended in accordance with U.S. generally accepted accounting principles.

Emphasis of Matter

As discussed in Note 17 to the consolidated financial statements, the USMS has elected to change its
capitalization threshold for internal use software, effective October 1, 2012. Our opinion is not modified
with respect to this matter.

Other Matters

Prior Period Financial Statements Audited by a Predecessor Auditor

The accompanying consolidated financial statements of the USMS as of September 30, 2012 and for the
year then ended were audited by other auditors whose report thereon dated November 5, 2012, expressed
an unmodified opinion on those financial statements.

Required Supplementary Information

U.S. generally accepted accounting principles require that the information in the Management’s Discussion
and Analysis, and Required Supplementary Information sections be presented to supplement the
consolidated financial statements. Such information, although not a part of the consolidated financial
statements, is required by the Federal Accounting Standards Advisory Board who considers it to be an
essential part of financial reporting for placing the consolidated financial statements in an appropriate
operational, economic, or historical context. We and the other auditors have applied certain limited
procedures to the required supplementary information in accordance with auditing standards generally
accepted in the United States of America, which consisted of inquiries of management about the methods
of preparing the information and comparing the information for consistency with management’s responses
to our inquiries, the consolidated financial statements, and other knowledge we obtained during our audit
of the consolidated financial statements. We and the other auditors do not express an opinion or provide
any assurance on the information because the limited procedures do not provide us with sufficient evidence
to express an opinion or provide any assurance.




                                                   - 20 -
Independent Auditors’ Report on the Financial Statements
Page 3




Other Information

Our audit was conducted for the purpose of forming an opinion on the consolidated financial statements as
a whole. The Combined Schedule of Spending is presented for purposes of additional analysis and is not a
required part of the consolidated financial statements. Such information has not been subjected to the
auditing procedures applied in the audits of the consolidated financial statements, and accordingly, we and
the other auditors do not express an opinion or provide any assurance on it.

Other Reporting Required by Government Auditing Standards

In accordance with Government Auditing Standards, we have also issued our fiscal year 2013 report dated
December 3, 2013 on our consideration of the USMS’s internal control over financial reporting, and our
fiscal year 2013 report dated December 3, 2013 on our tests of its compliance with certain provisions of
laws, regulations, and contracts and other matters. The purpose of those reports is to describe the scope of
our testing of internal control over financial reporting and compliance and the results of that testing, and
not to provide an opinion on the internal control over financial reporting or on compliance. Those reports
are an integral part of an audit performed in accordance with Government Auditing Standards in
considering the USMS’s internal control over financial reporting and compliance.




December 3, 2013




                                                   - 21 -
This page intentionally left blank.




              - 22 -
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




 Independent Auditors’ Report on Internal Control over Financial Reporting Based on an Audit of
       Financial Statements Performed in Accordance with Government Auditing Standards


Inspector General
U.S. Department of Justice


Director
United States Marshals Service
U.S. Department of Justice


We have audited, in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements, the consolidated financial statements of
the U.S. Department of Justice United States Marshals Service (USMS), which comprise the consolidated
balance sheet as of September 30, 2013 and the related consolidated statements of net cost, and changes in
net position, and the combined statement of budgetary resources (hereinafter referred to as “consolidated
financial statements”) for the year then ended, and the related notes to the consolidated financial
statements, and have issued our report thereon dated December 3, 2013. As discussed in Note 17 to the
consolidated financial statements, the USMS has elected to change its capitalization threshold for internal
use software, effective October 1, 2012. Our opinion is not modified with respect to this matter.

Internal Control over Financial Reporting

In planning and performing our audit of the consolidated financial statements as of and for the year ended
September 30, 2013, we considered the USMS’s internal control over financial reporting (internal control)
to determine the audit procedures that are appropriate in the circumstances for the purpose of expressing
our opinion on the consolidated financial statements, but not for the purpose of expressing an opinion on
the effectiveness of the USMS’s internal control. Accordingly, we do not express an opinion on the
effectiveness of the USMS’s internal control. We did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with governance.

Our consideration of internal control was for the limited purpose described in the first paragraph of this
section and was not designed to identify all deficiencies in internal control that might be material
	
weaknesses or significant deficiencies, and therefore, material weaknesses or significant deficiencies may
exist that were not identified. Given these limitations, during our audit we did not identify any deficiencies

                                 the U.S. member firm of KPMG International Cooperative
                                         KPMG LLP is a Delaware limited liability partnership,
                                 (“KPMG International”), a Swiss entity.

                                                                - 23 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Based on an Audit of Financial Statements Performed in
Accordance with Government Auditing Standards
Page 2


in internal control that we consider to be material weaknesses. However, we did identify certain
deficiencies in internal control, described in Exhibit I that we consider to be significant deficiencies.

USMS’s Responses to Findings

The USMS’s responses to the significant deficiencies identified in our audit and presented in Exhibit I
were not subjected to the auditing procedures applied in the audit of the USMS’s consolidated financial
statements and, accordingly, we express no opinion on the responses.

Exhibit II presents the status of prior years’ findings and recommendations.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control and the results of
that testing, and not to provide an opinion on the effectiveness of the USMS’s internal control. This report
is an integral part of an audit performed in accordance with Government Auditing Standards in considering
the USMS’s internal control. Accordingly, this communication is not suitable for any other purpose.




December 3, 2013
	




                                                     - 24 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Based on an Audit of Financial Statements Performed in
Accordance with Government Auditing Standards
Page 3

                                                                                            EXHIBIT I



                                     SIGNIFICANT DEFICIENCIES

This section contains our discussion of the significant deficiencies we identified in internal control over
financial reporting.

Improvements Needed in Control over Recording and Reporting the Status of Budgetary Resources
and Related Expenses

During fiscal year 2013, the USMS did not have adequate internal controls over its procurement process to
consistently ensure that obligations, reported expenses, and accrued expenses were complete, accurate, and
recorded in accordance with the government financial management requirements. Specifically, during our
test work we identified the following exceptions:
Undelivered Orders and Expenses: 63 exceptions of 712 sample items
•	 Forty four sample items resulted in a net most likely audit difference of $15 million related to expenses
   and undelivered orders that were not timely or accurately recorded during interim and at year-end.
•	 Twelve sample items totaling approximately $134 million related to expenses that were recorded to an
   incorrect general ledger account. This resulted in discrepancies between the classification of
   intragovernmental expenses and expenses with the public.
•	 Seven sample items had an approved vendor invoice that was not paid within 30 days of receipt and
   acceptance of the goods/services. Interest penalty expenses of approximately $15 thousand were not
                                                       R




   recorded or paid timely.
It should be noted that the USMS implemented a new financial management system during the year. Some
of the exceptions noted above related directly to the implementation of this new financial management
system. All exceptions that could be remediated by the USMS have been.
Quarterly Open Obligation Certification: 4 exceptions of 15 sample items
The open obligation certification was not completed prior to the close of the general ledger for the second
quarter at 4 of 15 District Offices tested.

OMB Circular A-123, states:

Management is responsible for developing and maintaining effective internal control. … The importance of
internal control is addressed in many statutes and executive documents. The FMFIA establishes overall
requirements with regard to internal control. The agency head must establish controls that reasonably
ensure that:…(iii) revenues and expenditures applicable to agency operations are properly recorded and
accounted for to permit the preparation of accounts and reliable financial and statistical reports and to
maintain accountability over the assets. … In addition, periodic reviews, reconciliations or comparisons of
data should be included as part of the regular assigned duties of personnel. Periodic assessments should be
integrated as part of management’s continuous monitoring of internal control, which should be ingrained
in the agency’s operations.



                                                     - 25 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Based on an Audit of Financial Statements Performed in
Accordance with Government Auditing Standards
Page 4

                                                                                               EXHIBIT I


USMS Policy 5.1, states:

D.		       Policy
           4.     Program managers are responsible for the accurate and timely accounting of their
                  workplans’ commitments and obligations.

           5. 	    Program managers must promptly record obligations and commitments in USMS financial
                   systems. Generally, transactions should be recorded the same day or on the next business
                   day, but no later than three business days unless there are extraordinary circumstances.

           12. 	   Program managers must ensure that a periodic review of their workplan obligation(s) is
                   performed.

U.S. Code Title 31, Subtitle III, Chapter 39, states:

…under regulations prescribed under section 3903 of this title, the head of an agency acquiring property
or service from a business concern, who does not pay the concern for each complete delivered item of
property or service by the required payment date, shall pay an interest penalty to the concern on the
amount of payment due.

RECOMMENDATIONS:
We recommend that the USMS:
                                                          R




       1.		 Utilize resources at Headquarters to provide assistance to the District Offices that have a history of
            untimely completion of the quarterly open obligation certification. (Updated)
           Management Response:
           The USMS concurs. The USMS is of the opinion that some of the delays in FY13 were due to the
           inherent learning curve associated with the implementation of a new financial system and ensuring
           that financial reports were available that provided accurate and meaningful information. On
           occasion there are extenuating circumstances that require a District or Program Office to request an
           extension to the due dates for submitting the Quarterly Open Obligation Certification. The USMS
           will continue to analyze untimely submissions for trends or other concerns, and provide assistance
           as necessary.

       2.		 Reinforce policies and procedures and provide training to individuals responsible for recording
            obligations, non-payroll expenses, accruals, and deobligations within the financial management
            systems. (Updated)
           Management Response:
           The USMS concurs and agrees to continue its efforts to reinforce policies and procedures through
           training with the individuals responsible for financial management in the agency.




                                                        - 26 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Based on an Audit of Financial Statements Performed in
Accordance with Government Auditing Standards
Page 5

                                                                                         EXHIBIT I

       In 2013, The Financial Services Division (FSD) created an intranet webpage, which offers
       guidance and learning tools related to financial system functionality. Lync sessions were recorded
       demonstrating step-by-step guidance on how to complete transactions in the financial system and
       are available on demand. Over 212 financial policies and procedures, checklists, etc., are posted on
       the intranet webpage.
       In June 2013, the FSD facilitated two week-long training programs for 16 District Administrative
       Officers (AOs) recently placed in the position. These individuals have the primary responsibility
       for financial management in the District Offices.
       The FSD holds monthly calls with the AOs and Program Offices to discuss the status of the audit,
       disseminate new guidance or policies, and provide a forum for open discussions and questions
       related to financial management at the USMS. These discussions hosted by the Chief Financial
       Officer will continue to facilitate opportunities for ongoing training for the financial management
       stakeholders and provide avenues for continued dialogue regarding policies and procedures of
       financial management.

   3.		 Develop and implement policies around MIC (Itemized Receipt) accrual transactions that require
        management approval and require that Headquarters review significant obligations in order to
        prevent the District Offices and Program Offices from incorrectly recording the obligation,
        expense, and necessary accruals. (Updated)
       Management Response:
       The USMS concurs. The USMS has implemented many controls to support the accurate and timely
                                                    R




       recording of accruals in the financial system. Furthermore, USMS management believes the
       findings specific to MIC accrual transactions are a reflection of the inherent learning curve
       associated with the implementation of a new financial system and the related change in business
       processes at all locations.
           •		 The USMS has identified business and financial management processes that pose a
               material and/or high risk for financial misstatement and has worked to consolidate the
               accrual process for these at a headquarters level. This includes prisoner housing with a
               materiality of over $1.5B annually.
           •		 The USMS Program Offices are involved in reviewing accruals completed by the Districts
               related to agency-wide programs or contracts such as court security.
           •		 In FY13, the USMS initiated a pilot for the Austin Processing Center (APC). The APC is a
               centralized center that processes accruals and payments related to eight defined financial
               processes within the UFMS for 16 participating pilot Districts. The goal of the agency is to
               reduce District workload, standardize processes for economies of scale and to reduce audit
               findings. The APC staff review obligations and documentation to provide proper internal
               control over financial transactions, including accruals. The USMS plans to move forward
               with all Districts participating in the APC in FY14 for the eight processes currently in
               place.
           •		 In FY13, the USMS also focused on maintaining an open dialogue with the District and
               Program Offices pertaining to the importance of accruals in overall financial management.


                                                  - 27 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Based on an Audit of Financial Statements Performed in
Accordance with Government Auditing Standards
Page 6

                                                                                           EXHIBIT I

        The USMS management will continue to review options for making improvements to the financial
        management process as well as communicating the importance of proper financial management to
        the District and Program Offices.

    4.		 Continue efforts to improve the reporting of funding balances at District Offices and Program
         Offices to enable District Offices and other decision makers to record expense, undelivered order,
         and accrual transactions in a timely and accurate manner. (Updated)
        Management Response:
        The USMS concurs. The USMS financial management will continue to improve the information
        available to District and Program Offices. Beginning in the latter half of FY13, the new Business
        Intelligence Enterprise Reporting (BIER) Open Obligation Status Report was developed and
        provided to all Offices along with the Quarterly Certification Report. These reports complement
        each other and provide even greater review and control over the open obligations. In FY14, all
        District and Program Offices will have access to the BIER system, which will further the goal of
        providing timely and accurate financial data agency wide.


Improvements Needed in Control over Financial Reporting

Existing controls relating to the review and preparation of the financial statements and related notes are not
adequately designed at the appropriate level of precision to prevent a misstatement in the financial
statements or notes. Specifically, during our test work, we identified the following exceptions:
                                                      R




Certified Annual Financial Statements as of September 30, 2013
    •	 The balance sheet amount for Accrued Payroll and Benefits incorrectly included payroll expenses
       for one pay period that had already been paid. This resulted in a classification error of $30 million
       between Accrued Payroll and Benefits, and Accounts Payable.
    •	 The note disclosure for General Property, Plant and Equipment was not properly compiled using
       the capitalized property sub-ledger. This resulted in a misstatement of a gross amount of $77
       million in the Aircraft, Vehicles, Equipment, Leasehold Improvements and Construction in
       Progress line items.
Certified Quarterly Financial Statements as of June 30, 2013
    •	 The required disclosure relating to the presentation of Resources that Finance the Acquisition of
       Assets did not include all applicable USMS funds. This resulted in an understatement of this line
       item of $4 million.
    •	 The Reconciliation of Net Cost of Operations to Budget did not include all appropriate general
       ledger accounts on the Net Change in Budgetary Resources Obligated for Goods, Services, and
       Benefits Ordered but not Yet Provided line item. This resulted in an overstatement of this line item
       of $89.7 million.
USMS corrected the errors noted above prior to issuing the final September 30, 2013 financial statements
and notes. However, existing USMS internal controls did not identify these errors.


                                                    - 28 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Based on an Audit of Financial Statements Performed in
Accordance with Government Auditing Standards
Page 7

                                                                                           EXHIBIT I

In addition to the errors above, we also identified journal entries used in the preparation of the financial
statements that were prepared and reviewed by the same individual. The lack of management review
controls increases the risk of error in the financial statements.
OMB Circular A-123, Management's Responsibility for Internal Control,

Section I Introduction, states:

Management is responsible for developing and maintaining effective internal control. Effective internal
control provides assurance that significant weaknesses in the design or operation of internal control, that
could adversely affect the agency’s ability to meet its objectives, would be prevented or detected in a timely
manner.

Section II. Standards, C. Control Activities, states:

Control activities include policies, procedures and mechanisms in place to help ensure that agency
objectives are met. Several examples include: proper segregation of duties (separate personnel with
authority to authorize a transaction, process the transaction, and review the transaction); physical controls
over assets (limited access to inventories or equipment); proper authorization; and appropriate
documentation and access to that documentation.


RECOMMENDATIONS:
We recommend that the USMS:                              R




    5.	 Develop and implement formal policies and procedures at an appropriate level of precision to
        prevent or detect and correct significant errors in financial reporting. (New)
        Management Response:
        The USMS concurs. Additional oversight and edit checks will be put in place to ensure a higher
        level of precision related to financial reporting. The USMS had many challenges this year
        including implementation of a new financial system agency wide and merger of the Office of the
        Federal Detention Trustee and related funding with the USMS upon enactment of the budget.

    6.	 Restrict users from being able to both prepare and review journal entries created in the general
        ledger. (New)
        Management Response:
        The USMS concurs.




                                                        - 29 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Based on an Audit of Financial Statements Performed in
Accordance with Government Auditing Standards
Page 8

                                                                                           EXHIBIT II



               STATUS OF PRIOR YEARS’ FINDINGS AND RECOMMENDATIONS


As required by Government Auditing Standards issued by the Comptroller General of the United States, we
have evaluated whether the USMS has taken appropriate corrective action to address findings and
recommendations from the prior years’ financial statement audits that could have a material effect on the
financial statements or other financial data significant to the audit objectives. The following table provides
the Office of the Inspector General report number where the deficiency was reported, the predecessor
auditor’s recommendation for improvement, and the status of previously identified significant deficiencies
and recommendations as of the end of fiscal year 2013.

                   Significant
   Report                                           Recommendation                            Status
                   Deficiency
 Annual         Funds               Recommendation No. 2: Enhance supervisory               In Process
 Financial      Management          review and approval controls, including review         (Updated by
 Statements     Controls Need       of source documentation, calculations, and           Fiscal Year 2013
 Fiscal Year    Improvement         posting logic for accounts payable, obligations,     Recommendation
 2010 Report                        and deobligation transactions.                       No. 1 and No. 3)
 No. 11-10
                                    Recommendation No. 5: Review financial                  In Process
                                    management and accounting processes in place
                                                      R
                                                                                           (Updated by
                                    at district offices to identify process, knowledge   Fiscal Year 2013
                                    and training gaps affecting the execution of and     Recommendation
                                    adherence to the USMS directives and policies;            No. 2)
                                    implement corrective action to address the
                                    identified gaps; and develop and implement
                                    procedures        for      maintaining      source
                                    documentation that can be easily retrieved for
                                    review and audit purposes.



 Annual         Funds               Recommendation No. 1: Continue coordinated              In Process
 Financial      Management          efforts among Financial Services Division and          (Updated by
 Statements     Controls Need       USMS program offices to finalize and                 Fiscal Year 2013
 Fiscal Year    Improvement         consistently implement policies and procedures       Recommendation
 2012 Report                        for recording obligations and deobligations in a          No. 4)
 No. 13-14                          timely manner, and to ensure that accruals for
                                    goods and services provided but not paid for are
                                    properly calculated, recorded timely, and
                                    adequately supported.




                                                    - 30 -
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




  Independent Auditors’ Report on Compliance and Other Matters Based on an Audit of Financial
            Statements Performed in Accordance with Government Auditing Standards


Inspector General
U.S. Department of Justice


Director
United States Marshals Service
U.S. Department of Justice


We have audited, in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements, the consolidated financial statements of
the U.S. Department of Justice United States Marshals Service (USMS), which comprise the consolidated
balance sheet as of September 30, 2013, and the related consolidated statements of net cost, and changes in
net position, and the combined statement of budgetary resources (hereinafter referred to as “consolidated
financial statements”) for the year then ended and the related notes to the consolidated financial statements,
and have issued our report thereon dated December 3, 2013. As discussed in Note 17 to the consolidated
financial statements, the USMS has elected to change its capitalization threshold for internal use software,
effective October 1, 2012. Our opinion is not modified with respect to this matter.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the USMS’s consolidated financial statements are
free from material misstatement, we performed tests of its compliance with certain provisions of laws,
regulations, and contracts, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 14-02. However, providing an opinion on compliance with those provisions
was not an objective of our audit, and accordingly, we do not express such an opinion. The results of our
tests of compliance disclosed no instances of noncompliance or other matters that are required to be
reported herein under Government Auditing Standards or OMB Bulletin No. 14-02.

We also performed tests of its compliance with certain provisions referred to in Section 803(a) of the
Federal Financial Management Improvement Act of 1996 (FFMIA). Providing an opinion on compliance
with FFMIA was not an objective of our audit, and accordingly, we do not express such an opinion. The
results of our tests of FFMIA disclosed no instances in which the USMS’s financial management systems
did not substantially comply with the (1) federal financial management system requirements, (2) applicable
federal accounting standards, and (3) application of the United States Government Standard General
Ledger at the transaction level.




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.

                                                                 - 31 -
Independent Auditors’ Report on Compliance and Other Matters
Based on an Audit of Financial Statements Performed in
Accordance with Government Auditing Standards
Page 2


Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of compliance and the results of that
testing, and not to provide an opinion on the USMS’s compliance. This report is an integral part of an audit
performed in accordance with Government Auditing Standards in considering the USMS’s compliance.
Accordingly, this communication is not suitable for any other purpose.




December 3, 2013
	




                                                     - 32 -
U.S. DEPARTMENT OF JUSTICE

UNITED STATES MARSHALS SERVICE


    PRINCIPAL FINANCIAL STATEMENTS 

                 AND 

            RELATED NOTES





                 - 33 -
This page intentionally left blank.




              - 34 -
                                                          U.S. Department of Justice

                                                       United States Marshals Service

                                                         Consolidated Balance Sheets

                                                      As of September 30, 2013 and 2012


Dollars in Thousands                                                                        2013           2012

ASSETS (Note 2)
   Intragovernmental
        Fund Balance with U.S. Treasury (Note 3)                                 $     610,946      $    488,186
        Accounts Receivable (Note 4)                                                    15,992           145,641
        Other Assets (Note 7)                                                            6,052             7,093
   Total Intragovernmental                                                             632,990           640,920

   Accounts Receivable (Note 4)                                                            130                29
   Inventory and Related Property (Note 5)                                               2,860             2,742
   General Property, Plant and Equipment, Net (Note 6)                                 281,488           265,904
   Advances and Prepayments                                                                  -                47
   Other Assets (Note 7)                                                                   184               184
Total Assets                                                                     $    917,652       $   909,826


LIABILITIES (Note 8)
   Intragovernmental
        Accounts Payable                                                         $         44,845   $     25,874
        Accrued Federal Employees' Compensation Act Liabilities                            17,207         16,753
        Other Liabilities (Note 10)                                                         4,687         12,439
   Total Intragovernmental                                                                 66,739         55,066

   Accounts Payable                                                                    213,150           244,011
   Actuarial Federal Employees' Compensation Act Liabilities                           103,024            93,617
   Accrued Payroll and Benefits                                                         20,855            36,317
   Accrued Annual and Compensatory Leave Liabilities                                    42,572            43,258
   Other Liabilities (Note 10)                                                          15,440             8,532
Total Liabilities                                                                $    461,780       $   480,801

Contingencies and Commitments (Note 11)

NET POSITION
   Unexpended Appropriations - All Other Funds                                   $     299,299      $    259,570
   Cumulative Results of Operations - All Other Funds                                  156,573           169,455
Total Net Position                                                               $    455,872       $   429,025

Total Liabilities and Net Position                                               $    917,652       $   909,826



United States Marshals Service
The accompanying notes are an integral part of these financial statements.

                                                            - 35 -
                                                               U.S. Department of Justice

                                                             United States Marshals Service

                                                          Consolidated Statements of Net Cost

                                                For the Fiscal Years Ended September 30, 2013 and 2012

Dollars in Thousands

                                            Gross Costs                                      Less: Earned Revenues                            Net Cost of
                        Intra-              With the                                  Intra-        With the                                  Operations
            FY       governmental            Public                Total           governmental      Public                  Total             (Note 12)

Goal 1:    2013      $       37,872     $         42,396     $          80,268    $             -      $          -      $           -    $           80,268
           2012               4,794                  -                   4,794                  -                 -                  -                 4,794

Goal 2:    2013              79,516              164,286              243,802                   -                 -                  -               243,802
           2012              32,637                  -                 32,637                   -                 -                  -                32,637

Goal 3:    2013             492,089            2,350,380             2,842,469               52,811             4,941            57,752            2,784,717
           2012             544,969            2,609,317             3,154,286            1,537,097             6,548         1,543,645            1,610,641

Total      2013      $     609,477      $     2,557,062      $     3,166,539      $        52,811      $       4,941     $      57,752    $       3,108,787
           2012      $     582,400      $     2,609,317      $     3,191,717      $     1,537,097      $       6,548     $   1,543,645    $       1,648,072



Goal 1    Prevent Terrorism and Promote the Nation's Security Consistent with the Rule of Law
Goal 2    Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law
Goal 3    Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice at the Federal,
          State, Local, Tribal, and International Levels




United States Marshals Service
The accompanying notes are an integral part of these financial statements.

                                                                        - 36 -
                                                       U.S. Department of Justice

                                                     United States Marshals Service

                                          Consolidated Statements of Changes in Net Position

                                        For the Fiscal Years Ended September 30, 2013 and 2012


     Dollars in Thousands                                                              2013               2012




     Unexpended Appropriations
       Beginning Balances                                                    $     259,570      $     257,093

         Budgetary Financing Sources
           Appropriations Received                                                 2,853,383          1,189,000
           Appropriations Transferred-In/Out                                         436,713            416,211
           Other Adjustments                                                        (197,806)            (2,200)
           Appropriations Used                                                    (3,052,561)        (1,600,534)

         Total Budgetary Financing Sources                                          39,729               2,477

         Unexpended Appropriations                                           $     299,299      $     259,570

     Cumulative Results of Operations
       Beginning Balances                                                    $     169,455      $     165,165

         Budgetary Financing Sources
           Appropriations Used                                                     3,052,561          1,600,534

         Other Financing Sources
           Transfers-In/Out Without Reimbursement                                     1,670                 58
           Imputed Financing from Costs Absorbed
             by Others (Note 13)                                                     41,674             51,770

         Total Financing Sources                                                 3,095,905          1,652,362

         Net Cost of Operations                                                  (3,108,787)        (1,648,072)
         Net Change                                                                 (12,882)             4,290
         Cumulative Results of Operations                                    $     156,573      $     169,455

     Net Position                                                            $     455,872      $     429,025




United States Marshals Service
The accompanying notes are an integral part of these financial statements.

                                                            - 37 -
                                                       U.S. Department of Justice

                                                     United States Marshals Service

                                             Combined Statements of Budgetary Resources

                                        For the Fiscal Years Ended September 30, 2013 and 2012

Dollars in Thousands                                                                        2013              2012

Budgetary Resources:
     Unobligated Balance, Brought Forward, October 1                                $     101,959     $      90,397

     Recoveries of Prior Year Unpaid Obligations                                           42,537            54,620
     Other Changes in Unobligated Balance                                                  46,940            (7,632)
     Unobligated Balance from Prior Year Budget Authority, Net                            191,436           137,385
     Appropriations (discretionary and mandatory)                                       3,045,350         1,610,644
     Spending Authority from Offsetting Collections (discretionary and mandatory)          86,010         1,538,614
Total Budgetary Resources                                                           $ 3,322,796       $ 3,286,643

Status of Budgetary Resources:
     Obligations Incurred (Note 14)                                                 $   3,166,404     $   3,184,684
     Unobligated Balance, End of Period:
         Apportioned                                                                      126,660            61,752
         Unapportioned                                                                     29,732            40,207
     Total Unobligated Balance - End of Period                                            156,392           101,959
Total Status of Budgetary Resources:                                                $ 3,322,796       $ 3,286,643

Change in Obligated Balance:
     Unpaid Obligations:
        Unpaid Obligations, Brought Forward, October 1                              $      537,767    $      648,610
        Obligations Incurred                                                             3,166,404         3,184,684
        Outlays, Gross (-)                                                              (3,202,913)       (3,240,907)
        Recoveries of Prior Year Unpaid Obligations (-)                                    (42,537)          (54,620)
        Unpaid Obligations, End of Period                                                  458,721           537,767
     Uncollected Payments:
        Uncollected Payments from Federal Sources, Brought Forward, October 1 (-)        (160,071)         (188,832)
        Change in Uncollected Customer Payments from Federal Sources                      140,402            28,761
        Uncollected Customer Payments from Federal Sources                                (19,669)         (160,071)
     Memorandum (non-add) Entries:
        Obligated balance, Start of Period                                          $     377,696     $     459,778
        Obligated balance, End of Period                                            $     439,052     $     377,696



Budgetary Authority and Outlays, Net:
     Budgetary Authority, Gross (discretionary and mandatory)                           3,131,360         3,149,258
     Less: Actual Offsetting Collections (discretionary and mandatory)                    226,412         1,567,371
     Change in Uncollected Customer Payments from Federal Sources                         140,402            28,761
         (discretionary and mandatory)
     Budget Authority, Net (discretionary and mandatory)                            $ 3,045,350       $ 1,610,648
     Outlays, Gross (discretionary and mandatory)                                   $   3,202,913     $   3,240,907
     Less: Actual Offsetting Collections (discretionary and mandatory)                    226,412         1,567,371
     Outlays, Net (discretionary and mandatory)                                         2,976,501         1,673,536
     Agency Outlays, Net (discretionary and mandatory)                              $ 2,976,501       $ 1,673,536




United States Marshals Service
The accompanying notes are an integral part of these financial statements.

                                                            - 38 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 1. Summary of Significant Accounting Policies

          A. Reporting Entity
          The United States Marshals Service (USMS) is an entity of the Department of Justice (DOJ)
          and functions to facilitate the following DOJ strategic goals as presented in the DOJ Strategic
          Plan:
               Goal I: 	       “Prevent Terrorism and Promote the Nation’s Security Consistent with the
                               Rule of Law”
               Goal II:	       “Prevent Crime, Protect the Rights of the American People, and Enforce
                               Federal Law”
               Goal III:	 “Ensure and Support the Fair, Impartial, Efficient, and Transparent
                          Administration of Justice at the Federal, State, Local, Tribal, and International
                          Levels”
          The financial statements of the USMS have been prepared to reflect the activity of these core
          functions from operations in all 94 Districts and Headquarters. The FY 2013 President’s
          Budget merged the Office of Federal Detention Trustee (OFDT) into the USMS
          organizational structure. USMS designated OFDT to be aligned under the USMS’s Prisoner
          Operations Division (POD) to better align detention resources with existing operations.
          The USMS receives funding needed to support its programs through Congressional
          appropriations. Both annual and multi-year appropriations are used, within statutory limits,
          for operating and capital expenditures. The USMS appropriations include Salaries and
          Expenses, Construction, and Federal Prisoner Detention (FPD). The USMS also receives an
          appropriation transfer from the Administrative Office of the U.S. Courts (AOUSC) for court
          security. The USMS also has a Revolving Fund called the Justice Prisoner and Alien
          Transportation System (JPATS).

          B. Basis of Presentation
          These financial statements have been prepared from the books and records of the USMS in
          accordance with United States generally accepted accounting principles issued by the Federal
          Accounting Standards Advisory Board (FASAB) and presentation guidelines in the Office of
          Management and Budget (OMB) Circular A-136, Financial Reporting Requirements. These
          financial statements are different from the financial reports prepared pursuant to OMB
          directives, which are used to monitor and control the use of USMS budgetary resources. To
          ensure that the USMS financial statements are meaningful at the entity level and to enhance
          reporting consistency within the Department, Other Assets and Other Liabilities as defined
          by OMB Circular A-136 have been disaggregated on the Balance Sheet. These include
          Advances and Prepayments with the Public, Accrued Federal Employees’ Compensation Act
          (FECA) Liabilities, Accrued Payroll and Benefits, and Accrued Annual and Compensatory
          Leave Liabilities.


United States Marshals Service
These notes are an integral part of the financial statements.

                                                                - 39 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 1. Summary of Significant Accounting Policies (continued)

          C. Basis of Consolidation
          The consolidated/combined financial statements include the accounts of the USMS. All
          significant proprietary intra-entity transactions and balances have been eliminated in
          consolidation. The Statements of Budgetary Resources are combined statements for the
          fiscal years ended September 30, 2013 and 2012, and as such, intra-entity transactions have
          not been eliminated.

          D. Basis of Accounting
          Transactions are recorded on the accrual and budgetary bases of accounting. Under the
          accrual basis, revenues are recorded when earned and expenses are recorded when incurred,
          regardless of when cash is exchanged. Under the budgetary basis, however, funds
          availability is recorded based upon legal considerations and constraints. As a result, certain
          line items on the proprietary financial statements may not equal similar line items on the
          budgetary financial statements.

          E. Non-Entity Assets
          Non-entity assets are comprised of deposit funds, which temporarily hold receipts for service
          of process fees and seized assets of pending civil cases.

          F. Fund Balance with U.S. Treasury
          Fund Balance with U.S. Treasury (FBWT) is the aggregate amount of the entity's accounts
          with the U.S. Treasury for which the entity is authorized to make expenditures and pay
          liabilities. FBWT also includes Other Fund Types (deposit funds). These deposit funds are
          non-entity assets for which the entity is not authorized to make expenditures and pay
          liabilities. The Revolving Fund is a separate account involving reimbursement for JPATS
          prisoner movements.

          G. Accounts Receivable
          The USMS expects an immaterial amount of uncollectible Accounts Receivable based upon
          data from previous years. Most of the Accounts Receivable are due from other Federal
          agencies. As a result, an allowance for doubtful accounts was not established. Accounts
          Receivable written off are a result of management’s specific identification of amounts
          determined to be uncollectible.

          H. Inventory and Related Property
          Operating materials include materials and supplies used for the repair of airplanes. The
          USMS utilizes the first-in, first-out (FIFO) method as the basis for valuation of these items.



United States Marshals Service
These notes are an integral part of the financial statements.

                                                                - 40 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 1. Summary of Significant Accounting Policies (continued)

          I. General Property, Plant, and Equipment
          DOJ Financial Management Policy Memorandum (FMPM) 13-12, Capitalization of General
          Property, Plant, and Equipment, and Internal Use Software, was issued in fiscal year (FY)
          2013 with an effective date for reporting periods ending after September 30, 2014. Early
          implementation of the policy’s increased capitalization thresholds was encouraged beginning
          October 1, 2012. The USMS implemented the increased Internal Use Software capitalization
          threshold in FY 2013. For financial statement purposes, the primary changes relate to the
          capitalization thresholds for Internal Use Software which results in no change to the overall
          PP&E balance as software on hand will not meet the FY 2013 reporting threshold of $5
          million.
          Below are the capitalization thresholds:
                         Type of Property                 FY 2013 Thresholds       FY 2012 Thresholds
                     Real Property                                        $100                   $100
                     Personal Property                                     $25                    $25
                        Aircraft                                          $100                   $100
                     Internal Use Software                              $5,000                   $500


          Except for land, all general PP&E will be capitalized when the cost of acquiring or
          improving the property meets the thresholds noted in the table above. Land is capitalized
          regardless of the acquisition cost. Except for land, all general PP&E is depreciated or
          amortized, based on historical cost, using the straight-line method over the estimated useful
          life of the asset, which range from 2 to 25 years. Land is never depreciated. Other equipment
          is expensed when purchased or included in inventory if used for the repair of airplanes.
          Normal repairs and maintenance are expensed as incurred.

          J. Advances and Prepayments
          Advances and Prepayments consist of intragovernmental advances provided to Federal Prison
          Industries, Inc., for the equipping of vehicles and equipment, and the Federal Aviation
          Administration for aircraft maintenance. Advances provided to the Public include travel
          advances issued to Federal employees for relocation travel costs.

          K. Liabilities
          Liabilities represent the amount of monies, or other resources, that are likely to be paid by the
          USMS as the result of a transaction or event that has already occurred. However, no liability
          can be paid by the USMS absent proper budget authority. Liabilities for which an
          appropriation has not been enacted are classified as liabilities not covered by budgetary
          resources, and there is no certainty that corresponding future appropriations will be enacted.


United States Marshals Service
These notes are an integral part of the financial statements.

                                                                - 41 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 1. Summary of Significant Accounting Policies (continued)

          The USMS maintains liabilities with the Public for deposit funds, which temporarily hold
          receipts for service of process fees and seized assets of pending civil cases. These are
          included as a part of Other Liabilities with the Public on the Balance Sheet.

          L. Contingencies and Commitments
          The USMS is party to various administrative proceedings, legal actions, and claims. The
          Balance Sheet includes an estimated liability for those legal actions where management and
          the Chief Counsel consider adverse decisions “probable” and amounts are reasonably
          estimable. Legal actions where management and the Chief Counsel consider adverse
          decisions “probable” or “reasonably possible” and the amounts are reasonably estimable are
          disclosed in Note 11, Contingencies and Commitments. However, there are cases where
          amounts have not been accrued or disclosed because the amounts of the potential loss cannot
          be estimated or the likelihood of an unfavorable outcome is considered “remote”.

          M. Annual, Sick, and Other Leave
          Accrued Annual and Compensatory Leave Liabilities are expected to be paid from future
          years' appropriations. Federal employees' annual leave is accrued as it is earned, and the
          accrual is reduced annually for actual leave taken and increased for leave earned. Each year,
          the accrued annual leave balance is adjusted to reflect the latest pay rates. Sick leave is
          expensed as taken.

          N. Interest on Late Payments
          The USMS on occasion incurs interest penalties on late payments. All such interest penalties
          are paid to the respective vendor in accordance with the guidelines mandated by the Prompt
          Payment Act, (P.L. 97-177), as amended.

          O. Retirement Plans
          With few exceptions, employees hired before January 1, 1984 are covered by the Civil
          Service Retirement System (CSRS). Employees hired between January 1, 1984 through
          December 31, 2012 are covered by the Federal Employees Retirement System (FERS).
          Employees hired after January 1, 2013 are covered by the Federal Employees Retirement
          System-Revised Annuity Employees (FERS-RAE) System.
          For employees covered by the CSRS, the USMS contributes 7.0 percent of the employee's
          gross pay for normal retirement or 7.5 percent for law enforcement retirement. For
          employees covered by the FERS, the USMS contributes 11.9 percent of the employee's gross
          pay for regular employees, and 26.3 percent of the employee's gross pay for law enforcement
          retirement. For employees covered by FERS-RAE, USMS contributes 9.6 percent of the
          employees gross pay for regular and 24.0 percent for law enforcement officers’ retirement.
          All employees are eligible to contribute to the Federal Thrift Savings Plan (TSP).

United States Marshals Service
These notes are an integral part of the financial statements.

                                                                - 42 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 1. Summary of Significant Accounting Policies (continued)

          For those employees covered by the FERS and FERS-RAE, a TSP account is automatically
          established, and the USMS is required to contribute an additional 1.0 percent of gross pay to
          this account and match employee contributions up to an additional 4.0 percent of gross pay.
          No government contributions are made to the TSP accounts established by the CSRS
          employees. The USMS does not report CSRS or FERS assets, accumulated plan benefits, or
          unfunded liabilities, if any, which may be applicable to its employees. Such reporting is the
          responsibility of the Office of Personnel Management (OPM). Statement of Federal
          Financial Accounting Standards (SFFAS) No. 5, Accounting for Liabilities of the Federal
          Government, requires employing agencies to recognize the cost of pensions and other
          retirement benefits during their employees’ active years of service. Refer to Note 13,
          Imputed Financing from Costs Absorbed by Others, for additional details.

          P. Federal Employee Compensation Benefits
          The FECA provides income and medical cost protection to cover Federal civilian employees
          injured on the job, employees who have incurred a work-related occupational disease, and
          beneficiaries of employees whose death is attributable to a job-related injury or occupational
          disease. The total FECA liability consists of an actuarial and an accrued portion as discussed
          below.
          Actuarial Liability: The U.S. Department of Labor (DOL) calculates the liability of the
          Federal Government for future compensation benefits, which includes the expected liability
          for death, disability, medical, and other approved costs. The liability is determined using the
          paid-losses extrapolation method calculated over the next 37-year period. This method
          utilizes historical benefit payment patterns related to a specific incurred period to predict the
          ultimate payments related to that period. The projected annual benefit payments are
          discounted to present value. The resulting Federal Government liability is then distributed by
          agency. The Department’s portion of this includes the estimated future cost of death
          benefits, workers’ compensation, medical, and miscellaneous cost for approved
          compensation cases for its employees. The Department’s liability is further allocated to the
          component reporting entities based on actual payments made to the FECA Special Benefits
          Fund (SBF) for the three prior years as compared to the total Department’s payments made
          over the same period.
          The FECA actuarial liability is recorded for reporting purposes only. This liability
          constitutes an extended future estimate of cost, which will not be obligated against budgetary
          resources until the FY in which the related funds are billed to the USMS. The cost associated
          with this liability may not be met by the USMS without further appropriation action.
          Accrued Liability: The accrued FECA liability owed to the DOL is the difference between
          the FECA benefits paid by the FECA SBF and the agency’s actual cash payments to the
          FECA SBF.



United States Marshals Service
These notes are an integral part of the financial statements.

                                                                - 43 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 1. Summary of Significant Accounting Policies (continued)

          For example, the FECA SBF will pay benefits on behalf of an agency through the current
          year. However, most agencies’ actual cash payments to the FECA SBF for the current FY
          will reimburse the FECA SBF for benefits paid through a prior FY. The difference between
          these two amounts is the accrued FECA liability.

          Q. Intragovernmental Activity
          Intragovernmental costs and exchange revenue represent transactions made between two
          reporting entities within the Federal Government. Costs and earned revenues with the Public
          represent exchange transactions made between the reporting entity and a non-Federal entity.
          The classification of revenue or cost as “intragovernmental” or “with the Public” is defined
          on a transaction-by-transaction basis. The purpose of this classification is to enable the
          Federal Government to prepare consolidated financial statements, not to match Public and
          intragovernmental revenue with the costs incurred to produce Public and intragovernmental
          revenue.

          R. Revenues and Other Financing Sources
          The USMS receives funding needed to support its programs through appropriations.
          Appropriations are recognized as a financing source when the funding is appropriated. The
          USMS also reports revenue earned for services performed on a reimbursable basis with other
          Federal agencies and components of the DOJ. The revenue for these services is earned when
          the work is performed. Moreover, the USMS reports appropriations transferred from other
          Federal entities as a financing source.

          S.	 Funds from Dedicated Collections
          Statement of Federal Financial Accounting Standards (SFFAS) No. 27, Identifying and
          Reporting Earmarked Funds, as amended by SFFAS No. 43 Funds from Dedicated
          Collections: Amending Statement of Federal Financial Accounting Standards 27, Identifying
          and Reporting Earmarked Funds, defines funds from dedicated collections’ as being
          financed by specifically identified revenues, provided to the Government by non-Federal
          sources, often supplemented by other financing sources, which remain available over time.
          These specifically identified revenues and other financing sources are required by statute to
          be used for designated activities, benefits, or purposes, and must be accounted for separately
          from the Government’s general revenues. The three required criteria for a fund from
          dedicated collections are:
                    1.	 A statute committing the Federal Government to use specifically identified
                        revenues and/or other financing sources that are originally provided to the Federal
                        Government by a non-Federal source only for designated activities, benefits or
                        purposes;



United States Marshals Service
These notes are an integral part of the financial statements.

                                                                - 44 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 1. Summary of Significant Accounting Policies (continued)
            2.	 Explicit authority for the funds to retain revenues and/or other financing sources
                not used in the current period for future use to finance the designated activities,
                benefits or purposes; and
            3.	 A requirement to account for and report on the receipt, use, and retention of the
                revenues and/or other financing sources that distinguishes the fund from the
                Federal Government’s general revenues.
          The USMS does not currently have funds that meet the definition of funds from dedicated
          collections.

          T. A
             	 llocation Transfer of Appropriations
          The USMS is a party to allocation transfers with another Federal agency as a receiving
          (child) entity. Allocation transfers are legal delegations by one department of its authority to
          obligate budget authority and outlay funds to another department. Generally, all financial
          activity related to these allocation transfers (e.g., budget authority, obligations, outlays) is
          reported in the financial statements of the parent entity, from which the underlying legislative
          authority, appropriations and budget apportionments are derived. An exception to this
          general rule affecting the USMS includes the Funds transferred from the Judicial Branch to
          the USMS for court security costs. Per OMB guidance, the USMS will report all activity
          relative to these allocation transfers in the USMS financial statements.
          The USMS uses these allocation transfers to pay for costs associated with the protective
          guard services – Court Security Officers at United States courthouses and other facilities
          housing Federal court operations. These costs include their salaries (paid by contracts),
          equipment, and supplies. The allocation transfers occur periodically throughout the FY.

          U. Tax Exempt Status
          As an agency of the Federal Government, the USMS is exempt from all income taxes
          imposed by any governing body whether it be a Federal, state, commonwealth, local, or
          foreign government.

          V. Use of Estimates
          The preparation of financial statements requires management to make certain estimates and
          assumptions that affect the reported amounts of assets and liabilities and the reported
          amounts of revenue and expenses during the reporting period. Actual results could differ
          from those estimates.




United States Marshals Service
These notes are an integral part of the financial statements.

                                                                - 45 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 1. Summary of Significant Accounting Policies (continued)

          W. Reclassifications
          The FY 2012 financial statements were reclassified to conform to the FY 2013 Departmental
          financial statement presentation requirements. Changes to the presentation of the Combined
          and Combining Statements of Budgetary Resources were made, in accordance with guidance
          provided in OMB Circular A-136, Financial Reporting Requirements and as such, activity
          and balances reported on the FY 2012 Combined and Combining Statements of Budgetary
          Resources have been reclassified to conform to the presentation in the current year.

          X. Subsequent Events
          Subsequent events and transactions occurring after September 30, 2013 through the date of
          the auditors’ opinion have been evaluated for potential recognition or disclosure in the
          financial statements. The date of the auditors’ opinion also represents the date that the
          financial statements were available to be issued.

Note 2. Non-Entity Assets

            As of September 30, 2013 and 2012
                                                                                2013                 2012
            Intragovernmental
              Fund Balance with U.S. Treasury                              $       15,497        $      8,531
                Total Non-Entity Assets                                            15,497               8,531
                Total Entity Assets                                               902,155             901,295
                Total Assets                                               $      917,652        $    909,826




United States Marshals Service
These notes are an integral part of the financial statements.

                                                                - 46 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 3. Fund Balance with U.S. Treasury


             As of September 30, 2013 and 2012
                                                                                  2013               2012
             Fund Balances
               Revolving Funds                                               $       28,261      $     36,488
               General Funds                                                        567,183           443,167
               Other Fund Types                                                      15,502             8,531
                Total Fund Balances with U.S. Treasury                       $      610,946      $    488,186

             Status of Fund Balances
               Unobligated Balance - Available                               $      126,660      $     61,752
               Unobligated Balance - Unavailable                                     29,732            40,207
               Obligated Balance not yet Disbursed                                  439,052           377,696
               Other Funds (With)/Without Budgetary Resources                        15,502             8,531
                  Total Status of Fund Balances                              $      610,946      $    488,186

Other Fund Types and Other Funds (With)/Without Budgetary Resources include non-entity assets.
Non-entity assets are comprised of deposit funds, which temporarily hold receipts for service of
process fees and seized assets of pending civil cases. It also includes a rescission of prior year
funding.




United States Marshals Service
These notes are an integral part of the financial statements.

                                                                - 47 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 4. Accounts Receivable

            As of September 30, 2013 and 2012
                                                                                   2013                   2012
            Intragovernmental
              Accounts Receivable                                          $         15,992       $        145,641
                Total Intragovernmental                                              15,992                145,641

            With the Public
             Accounts Receivable                                                        130                     29
               Total Accounts Receivable                                   $         16,122       $        145,670


Note 5. Inventory and Related Property

          As of September 30, 2013 and 2012
                                                                                     2013                  2012
          Inventory:

          Operating Materials and Supplies
           Held for Current Use                                                $          2,860       $          2,742




United States Marshals Service
These notes are an integral part of the financial statements.

                                                                - 48 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted



Note 6. General Property, Plant and Equipment, Net
Based upon early implementation of DOJ Financial Management Policy Memorandum (FMPM) 13­
12, Capitalization of General Property, Plant, and Equipment and Internal Use Software, the USMS
has been following the capitalization thresholds in accordance with (FMPM) 13-12 as described in
Note 1I.

    As of September 30, 2013

                                                           Acquisition    Accumulated        Net Book
                                                             Cost          Depreciation       Value        Useful Life
    Construction in Progress                             $      42,229    $          -     $     42,229       N/A
    Buildings, Improvements, and
      Renovations                                                   -               -                -      12 years
    Aircraft                                                     39,609         (14,760)          24,849   7-25 years
    Vehicles                                                     35,282         (24,003)          11,279   5-10 years
    Equipment                                                    51,876         (33,101)          18,775   5-15 years
    Leasehold Improvements                                      481,165        (296,809)         184,356    12 years
    Total                                                $      650,161   $    (368,673)   $     281,488


During the fiscal year ended September 30, 2013, the USMS purchased $21,680 in capitalized
property from Federal Sources and $35,102 from the Public.

    As of September 30, 2012

                                                           Acquisition    Accumulated        Net Book
                                                             Cost          Depreciation       Value        Useful Life
    Construction in Progress                             $      40,516    $          -     $     40,516       N/A
    Buildings, Improvements, and
      Renovations                                                 3,422          (3,422)             -      12 years
    Aircraft                                                     29,000         (14,745)          14,255   7-25 years
    Vehicles                                                     30,988         (20,212)          10,776   5-10 years
    Equipment                                                    47,869         (28,801)          19,068   5-15 years
    Leasehold Improvements                                      448,235        (266,946)         181,289    12 years
    Total                                                $      600,030   $    (334,126)   $     265,904

During the fiscal year ended September 30, 2012, the USMS purchased $29,646 in capitalized
property from Federal Sources and $11,033 from the Public.
The USMS has no restrictions on the use or convertibility of general PP&E.




United States Marshals Service
These notes are an integral part of the financial statements.

                                                                - 49 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 7. Other Assets

            As of September 30, 2013 and 2012
                                                                                2013                 2012
            Intragovernmental
              Advances and Prepayments                                     $        6,052        $       7,093


            Other Assets With the Public                                              184                  184
             Total Other Assets                                            $        6,236        $       7,277


Other Assets With the Public is comprised of a collection of historical items such as jewelry, badges,
and a carpet. The collection was appraised in November 2002 to provide the USMS with a basis for
these items.

Note 8. Liabilities not Covered by Budgetary Resources

      As of September 30, 2013 and 2012
                                                                                    2013                 2012
      Intragovernmental
        Accrued FECA Liabilities                                                $       17,207       $       16,753
        Other Unfunded Employment Related Liabilities                                       30                   88
          Total Intragovernmental                                                       17,237               16,841

      With the Public
       Actuarial FECA Liabilities                                                      103,024               93,617
       Accrued Annual and Compensatory Leave Liabilities                                42,572               43,258
         Total With the Public                                                         145,596              136,875
         Total Liabilities not Covered by Budgetary Resources                          162,833              153,716
         Total Liabilities Covered by Budgetary Resources                              298,947              327,085
         Total Liabilities                                                      $      461,780       $      480,801

Liabilities not Covered by Budgetary Resources result from the receipt of goods and services, or the
occurrence of eligible events, for which appropriations, revenues, or other financing sources
necessary to pay the liabilities have not yet been made available through Congressional
appropriation.




United States Marshals Service
These notes are an integral part of the financial statements.

                                                                - 50 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted



Note 9. Leases
The majority of office space occupied by the USMS is either owned by the Federal Government or is
leased by GSA from commercial sources. The rental cost is based on the square footage occupied at
the commercial rate per square foot which is negotiated by GSA along with appropriate GSA fees.
USMS is not committed to continue paying rent to GSA beyond the period occupied, provided that
proper advance notice to GSA is made and unless the space occupied is designated as unique to
USMS operations. However, it is expected USMS will continue to occupy and lease office space
from GSA in future years, and lease charges will be adjusted annually to reflect operating costs
incurred by GSA. As of September 30, 2013, estimated future minimum lease payments due under
noncancelable operating leases are as follows:


                       Future Noncancelable Operating Lease Payments
                                                                                    Land and
                       Fiscal Year                                                  Buildings
                         2014                                                     $       38,190
                         2015                                                             35,134
                         2016                                                             33,893
                         2017                                                             31,712
                         2018                                                             30,254
                         After 2018                                                     231,301
                           Total Future Noncancelable Operating
                               Lease Payments                                     $       400,484




United States Marshals Service
These notes are an integral part of the financial statements.

                                                                - 51 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted



Note 10. Other Liabilities

     As of September 30, 2013 and 2012
                                                                                          2013            2012
     Intragovernmental
       Employer Contributions and Payroll Taxes Payable                              $        4,641   $     12,261
       Other Post-Employment Benefits Due and Payable                                            16             90
       Other Unfunded Employment Related Liabilities                                             30             88
         Total Intragovernmental                                                              4,687         12,439

     With the Public
      Liability for Nonfiduciary Deposit Funds
       and Undeposited Collections                                                          15,440           8,532
        Total Other Liabilities                                                      $      20,127    $     20,971

Non-current liabilities consist of future employee related expenses, such as accrued retirement
contributions, life insurance, and retiree health benefits.

Note 11. Contingencies and Commitments
Contingencies include various administrative proceedings, legal actions, and claims related to
contract disputes and employee and prisoner claims; see Note 1.L for more details. The USMS does
not currently have pending legal actions where management and the Chief Counsel consider adverse
decisions “probable” or “reasonably possible” and the amounts are reasonably estimable.




United States Marshals Service
These notes are an integral part of the financial statements.

                                                                - 52 -
                                                                                      U.S. Department of Justice

                                                                                    United States Marshals Service

                                                                                   Notes to the Financial Statements

                                                                                   Dollars in Thousands, Except as Noted


Note 12. Net Cost of Operations by Suborganization

   For the Fiscal Years Ended September 30, 2013
                                                                                                               Suborganizations


                                                                              Justice Prisoner
                                                                                 and Alien                                                          All
                                                                               Transportation                           Federal Prisoner           Other
                                                                                   System             Court Security       Detention               Funds                 Eliminations         Consolidated

   Goal 1: Prevent Terrorism and Promote the Nation's Security Consistent with the Rule of Law

     Gross Cost                                                                $           -      $                -     $            -     $              80,269 $                -      $          80,269
     Net Cost of Operations                                                                -                       -                  -                    80,269                  -                 80,269

   Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law

     Gross Cost                                                                            -                       -                  -                  243,802                   -                243,802
     Net Cost of Operations                                                                -                       -                  -                  243,802                   -                243,802

   Goal 3: Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice at the Federal, State, Local, Tribal, and International Levels

     Gross Cost                                                                         54,843                402,176           1,472,674                944,470               (31,695)           2,842,468
     Less: Earned Revenue                                                               47,627                    -                     -                 41,820               (31,695)              57,752
     Net Cost of Operations                                                              7,216                402,176           1,472,674                902,650                   -              2,784,716

   Net Cost of Operations                                                      $         7,216 $              402,176 $         1,472,674 $            1,226,721 $                 -      $       3,108,787




   For the Fiscal Years Ended September 30, 2012
                                                                                                               Suborganizations
                                                                              Justice Prisoner
                                                                                 and Alien                                                          All
                                                                               Transportation                           Federal Prisoner           Other
                                                                                   System             Court Security       Detention               Funds                 Eliminations         Consolidated

   Goal 1: Prevent Terrorism and Promote the Nation's Security Consistent with the Rule of Law

     Gross Cost                                                                $           -      $                -     $            -     $               4,794 $                -      $           4,794
     Less: Earned Revenue                                                                  -                       -                  -                       -                    -                    ­
     Net Cost of Operations                                                                -                       -                  -                     4,794                  -                  4,794

   Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law

     Gross Cost                                                                            -                       -                  -                    32,637                  -                 32,637
     Net Cost of Operations                                                                -                       -                  -                    32,637                  -                 32,637

   Goal 3: Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice at the Federal, State, Local, Tribal, and International Levels

     Gross Cost                                                                         53,077                403,725           1,435,579              1,261,997                   (92)           3,154,286
     Less: Earned Revenue                                                               57,631                    -             1,435,579                 50,527                   (92)           1,543,645
     Net Cost of Operations                                                             (4,554)               403,725                 -                1,211,470                   -              1,610,641

   Net Cost of Operations                                                      $        (4,554) $             403,725 $               -     $          1,248,901 $                 -      $       1,648,072




United States Marshals Service
These notes are an integral part of the financial statements.

                                                                                               - 53 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 13. Imputed Financing from Costs Absorbed by Others
Imputed Inter-Departmental Financing Sources are the unreimbursed (i.e., non-reimbursed and
under-reimbursed) portion of the full costs of goods and services received by the USMS from a
providing entity that is not part of the U.S. Department of Justice. In accordance with SFFAS No.
30, Inter-Entity Cost Implementation Amending SFFAS 4, Managerial Cost Accounting Standards
and Concepts, the material Imputed Inter-Departmental financing sources recognized by the USMS
are the cost of benefits for the Federal Employees Health Benefits Program (FEHB), the Federal
Employees’ Group Life Insurance Program (FEGLI), the Federal Pension plans that are paid by
other Federal entities, and any un-reimbursed payments made from the Treasury Judgment Fund on
behalf of the USMS. The Treasury Judgment Fund was established by the Congress and funded at
31 U.S.C. 1304 to pay in whole or in part the court judgments and settlement agreements negotiated
by the Department on behalf of agencies, as well as certain types of administrative awards.
Interpretation of Federal Financial Accounting Standards Interpretation No. 2, Accounting for
Treasury Judgment Fund Transactions, requires agencies to recognize liabilities and expenses when
unfavorable litigation outcomes are probable and the amount can be estimated and will be paid by
the Treasury Judgment Fund.
SFFAS No. 5, Accounting for Liabilities of the Federal Government, requires that employing
agencies recognize the cost of pensions and other retirement benefits during their employees’ active
years of service. SFFAS No. 5 requires OPM to provide cost factors necessary to calculate cost.
OPM actuaries calculate the value of pension benefits expected to be paid in the future, and then
determine the total funds to be contributed by and for covered employees, such that the amount
calculated would be sufficient to fund the projected pension benefits. For employees covered by
CSRS, the cost factors are 32.3 percent of basic pay for regular, 54.9 percent law enforcement
officers, 24.6 percent regular offset, and 48.1 percent law enforcements offset. For employees
covered by FERS, the cost factors are 14.2 percent of basic pay for regular and 30.7 percent for law
enforcement officers. For employees covered by FERS-RAE, the cost factors are 14.2 percent of
basic pay for regular and 30.7 percent for law enforcement officers.
The cost to be paid by other agencies is the total calculated future costs, less employee and employer
contributions. In addition, the cost of other retirement benefits, which include health and life
insurance that are paid by other Federal entities, must also be recorded.
Imputed Intra-Departmental Financing Sources as defined in SFFAS No. 4, Managerial Cost
Accounting Concepts and Standards for the Federal Government, are the unreimbursed portion of
the full costs of goods and services received by the USMS from a providing entity that is part of the
U.S. Department of Justice. Recognition is required for those transactions determined to be material
to the receiving entity. The determination of whether the cost is material requires considerable
judgment based on the specific facts and circumstances of each type of good or service provided.
SFFAS No. 4 also states that costs for broad and general support need not be recognized by the
receiving entity, unless such services form a vital and integral part of the operations or output of the
receiving entity. Costs are considered broad and general if they are provided to many, if not all,
reporting components and not specifically related to the receiving entity’s output. The USMS does
not have any imputed intra-departmental costs to be recognized.

United States Marshals Service
These notes are an integral part of the financial statements.

                                                                - 54 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 13. Imputed Financing from Costs Absorbed by Others (continued)

         For the Fiscal Years Ended September 30, 2013 and 2012
                                                                                       2013                   2012

         Imputed Inter-Departmental Financing
           Treasury Judgment Fund                                                  $          596         $          7,496
           Health Insurance                                                                25,504                   28,979
           Life Insurance                                                                     109                      106
           Pension                                                                         15,465                   15,189
             Total Imputed Inter-Departmental                                      $       41,674         $         51,770


Note 14. Information Related to the Statement of Budgetary Resources
Apportionment Categories of Obligations Incurred:


                                                                                                                     Total
                                                                     Direct            Reimbursable               Obligations
                                                                    Obligations         Obligations                Incurred

     For the Fiscal Years Ended September 30, 2013
       Obligations Apportioned Under
         Category A                                             $      3,055,276       $       110,955        $      3,166,231
         Category B                                                          173                   -                       173
         Exempt from Apportionment
       Total                                                    $      3,055,449       $       110,955        $      3,166,404

     For the Fiscal Years Ended September 30, 2012
       Obligations Apportioned Under
         Category A                                             $      1,693,498       $      1,490,564       $      3,184,062
         Category B                                                          622                    -                      622
       Total                                                    $      1,694,120       $      1,490,564       $      3,184,684

The apportionment categories are determined in accordance with the guidance provided in Part 4
“Instructions on Budget Execution” of OMB Circular A-11, Preparation, Submission and Execution
of the Budget. Category A represents resources apportioned for calendar quarters. Category B
represents resources apportioned for other time periods; for activities, projects, and objectives or for
combination thereof.




United States Marshals Service
These notes are an integral part of the financial statements.

                                                                - 55 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 14. Information Related to the Statement of Budgetary Resources (continued)
Undelivered Orders (UDO) represent the amount of goods and/or services ordered, which have not
been actually or constructively received. This amount includes any orders which may have been
prepaid or advanced but for which delivery or performance has not yet occurred. Pursuant to Public
Law 113-6, the enacted budget for FY 2013 included a change in the source of budgetary authority
for the FPD from OFDT. This shift moved the reimbursable authority previously under the
Department of Justice Offices, Boards, and Divisions (OBDs) to the FPD under USMS as a direct
appropriated source of funding.

Status of Undelivered Orders:

              As of September 30, 2013 and 2012
                                                                              2013                   2012

              UDO Obligations Unpaid                                      $     182,187          $    219,158
              UDO Obligations Prepaid/Advanced                                    6,052                 7,140
               Total UDO                                                  $     188,239          $    226,298

Legal Arrangements Affecting Use of Unobligated Balances:
Unobligated balances represent the cumulative amount of budget authority that is not obligated and
that remains available for obligation based on annual legislative requirements and other enabling
authorities, unless otherwise restricted. The use of unobligated balances is restricted based on
annual legislation requirements and other enabling authorities. Funds are appropriated on an annual,
multi-year, and no-year basis. Appropriated funds shall expire on the last day of availability and are
no longer available for new obligations. Unobligated balances in unexpired fund symbols are
available in the next FY for new obligations unless some restrictions have been placed on those
funds by law. Amounts in expired fund symbols are not available for new obligations, but may be
used to adjust previously established obligations.




United States Marshals Service
These notes are an integral part of the financial statements.

                                                                - 56 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 14. Information Related to the Statement of Budgetary Resources (continued)
Statement of Budgetary Resources vs. the Budget of the United States Government:
The reconciliation as of September 30, 2013 is not presented, because the submission of the Budget
of the United States Government (Budget) for FY 2015, which presents the execution of the FY
2013 Budget, occurs after publication of these financial statements. The Department of Justice
Budget Appendix can be found on the OMB website (http://www.whitehouse.gov/omb/budget) and
will be available in early February 2014.

     For the Fiscal Year Ended September 30, 2012:
       (Dollars in Millions)                                                                       Distributed
                                                             Budgetary         Obligations         Offsetting             Net
                                                             Resources          Incurred            Receipts             Outlays

     Statement of Budgetary Resources (SBR)              $         3,287   $          3,185    $                 -   $        1,674

     Funds not Reported in the Budget                                                                            -
       Expired Funds                                                (47)                (15)                     -               -
       USMS Court Security Funds                                   (438)               (425)                     -            (426)

     Budget of the United States Government              $         2,802   $          2,745    $                 -   $        1,248

The Court Security Funds are transfer appropriations from the Judiciary Branch (See Note 1.T).
These transfers are accomplished through Nonexpenditure Transfer Authorizations.




United States Marshals Service
These notes are an integral part of the financial statements.

                                                                 - 57 -
                                                          U.S. Department of Justice

                                                        United States Marshals Service

                                                       Notes to the Financial Statements

                                                     Dollars in Thousands, Except as Noted



Note 15. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
Statement of Financing)

 For the Fiscal Years Ended September 30, 2013 and 2012
                                                                                         2013                2012
 Resources Used to Finance Activities

     Budgetary Resources Obligated
       Obligations Incurred                                                          $   3,166,404       $   3,184,684
       Less: Spending Authority from Offsetting Collections and
           Recoveries                                                                      128,547           1,593,234
       Obligations Net of Offsetting Collections and Recoveries                          3,037,857           1,591,450
       Net Obligations                                                                   3,037,857           1,591,450

    Other Resources
       Transfers In/Out Without Reimbursement                                                1,670                  58
       Imputed Financing from Costs Absorbed by Others (Note 13)                            41,674              51,770
       Net Other Resources Used to Finance Activities                                       43,344              51,828
 Total Resources Used to Finance Activities                                              3,081,201           1,643,278

 Resources Used to Finance Items not Part of the Net Cost of
    Operations
       Net Change in Budgetary Resources Obligated for Goods, Services,
           and Benefits Ordered but not Yet Provided                                           27,307          (1,092)
       Resources That Fund Expenses Recognized in Prior Periods (Note 16)                        (744)           (682)
       Resources That Finance the Acquisition of Assets                                       (56,900)        (40,679)
    Other Resources or Adjustments to Net Obligated Resources
       That do not Affect Net Cost of Operations                                                1,670               -
 Total Resources Used to Finance Items not Part of the Net Cost
    of Operations                                                                             (28,667)        (42,453)

 Total Resources Used to Finance the Net Cost of Operations                          $   3,052,534       $   1,600,825

 Components of Net Cost of Operations That Will not Require
   or Generate Resources in the Current Period

     Components That Will Require or Generate Resources
       in Future Periods (Note 16)                                                   $         9,760     $      8,110

     Depreciation and Amortization                                                            40,793           39,543
     Revaluation of Assets or Liabilities                                                        238              855
     Other                                                                                     5,462           (1,261)
 Total Components of Net Cost of Operations That Will not
    Require or Generate Resources in the Current Period                                       56,253           47,247

 Net Cost of Operations                                                              $   3,108,787       $   1,648,072


United States Marshals Service
These notes are an integral part of the financial statements.

                                                                - 58 -
                                                          U.S. Department of Justice

                                                        United States Marshals Service

                                                       Notes to the Financial Statements

                                                     Dollars in Thousands, Except as Noted


Note 16. Explanation of Differences Between Liabilities not Covered by Budgetary
Resources and Components of Net Cost of Operations Requiring or Generating Resources
in Future Periods
Liabilities that are not covered by realized budgetary resources and for which there is no
certainty that budgetary authority will be realized, such as the enactment of an appropriation, are
considered liabilities not covered by budgetary resources. These liabilities totaling $162,833 and
$153,716 on September 30, 2013 and 2012, respectively, are discussed in Note 8, Liabilities not
Covered by Budgetary Resources. Decreases in these liabilities result from current year
budgetary resources that were used to fund expenses recognized in prior periods. Increases in
these liabilities represent unfunded expenses that were recognized in the current period. These
increases along with the change in the portion of exchange revenue receivables from the Public,
which are not considered budgetary resources until collected, represent components of current
period net cost of operations that will require or generate budgetary resources in future periods.
The changes in liabilities not covered by budgetary resources and receivables generating
resources in future periods are comprised of the following:

    For the Fiscal Years Ended September 30, 2013 and 2012
                                                                                            2013               2012
    Resources that Fund Expenses Recognized in Prior Periods
     Decrease in Accrued Annual and Compensatory Leave Liabilities                    $            (686)   $          (682)
     Other
       Decrease in Other Unfunded Employment Related Liabilities                                    (58)               -
         Total Other                                                                                (58)               -
         Total Resources that Fund Expenses Recognized in Prior Periods               $            (744)   $          (682)

    Components of Net Cost of Operations That Will Require or Generate Resources in Future Periods
     (Increase)/Decrease in Exchange Revenue Receivable from the Public               $         (101)      $             6
     Other
       Increase in Actuarial FECA Liabilities                                                  9,407              7,252
       Increase in Accrued FECA Liabilities                                                      454                841
       Increase in Other Unfunded Employment Related Liabilities                                 -                   11
         Total Other                                                                           9,861              8,104
         Total Components of Net Cost of Operations That Will Require
           or Generate Resources in Future Periods                                    $        9,760       $      8,110


Note 17. Change in Accounting Principle
Based upon early implementation of DOJ Financial Management Policy Memorandum (FMPM)
13-12, Capitalization of General Property, Plant, and Equipment and Internal Use Software,
USMS revised its capitalization threshold for Internal Use Software. The primary impact of the
policy was an increase in the thresholds for capitalizing and reporting Internal Use Software.
The change in accounting principle did not cause a change to the overall PP&E balance. The
USMS will implement the new thresholds for the remaining PP&E categories in FY 2014.


United States Marshals Service
These notes are an integral part of the financial statements.

                                                                - 59 -
This page intentionally left blank.




              - 60 -
U.S. DEPARTMENT OF JUSTICE


UNITED STATES MARSHALS SERVICE



       REQUIRED SUPPLEMENTARY
            INFORMATION
            (UNAUDITED)




                - 61 -
                                                                                   U.S. Department of Justice

                                                                                 United States Marshals Service

                                                                             Required Supplementary Information

                                                                         Combining Statement of Budgetary Resources

                                                                            Broken Down by Major Appropriation

                                                                         For the Fiscal Year Ended September 30, 2013


Dollars in Thousands                                                                                                                                                                    2013


                                                                                                                                                      Justice Prisoner
                                                                                                                                                         and Alien
                                                                                        Salaries &                                                     Transportation
                                                                                         Expense          Court Security           Construction           System              Total
Budgetary Resources:
    Unobligated Balance, Brought Forward, October 1                                 $          46,637     $        13,117      $             930      $         41,275    $       101,959
        Unobligated Balance, Brought Forward, October 1, as adjusted                           46,637              13,117                    930                41,275            101,959


    Recoveries of Prior Year Unpaid Obligations                                                23,312              18,282                    581                   362                42,537
    Other Changes in Unobligated Balance                                                       65,346             (18,406)                        -                  -                46,940
    Unobligated Balance from Prior Year Budget Authority, Net                                 135,295              12,993                   1,511               41,637            191,436
    Appropriations (discretionary and mandatory)                                             2,638,591            396,966                   9,793                    -           3,045,350
    Spending Authority from Offsetting Collections (discretionary and mandatory)               36,367                 638                    514                48,491                86,010
Total Budgetary Resources                                                           $     2,810,253       $     410,597        $         11,818       $       90,128      $   3,322,796

Status of Budgetary Resources:
    Obligations Incurred (Note 14)                                                  $        2,680,404    $       397,225      $           10,995     $         77,780    $      3,166,404
    Unobligated Balance, End of Period:
        Apportioned                                                                           110,394               3,606                    312                12,348            126,660
        Unapportioned                                                                          19,455               9,766                    511                     -                29,732
    Total Unobligated Balance - End of Period                                                 129,849              13,372                    823                12,348            156,392
Total Status of Budgetary Resources:                                                $     2,810,253       $     410,597        $         11,818       $       90,128      $   3,322,796

Change in Obligated Balance:
    Unpaid Obligations:
        Unpaid Obligations, Brought Forward, October 1                              $         378,099     $       120,124      $           35,346     $          4,198    $       537,767
        Obligations Incurred                                                                 2,680,404            397,225                  10,995               77,780           3,166,404
        Outlays, Gross (-)                                                                  (2,716,580)          (414,400)                 (8,458)             (63,475)         (3,202,913)
        Recoveries of Prior Year Unpaid Obligations (-)                                        (23,312)           (18,282)                   (581)                (362)               (42,537)
        Unpaid Obligations, End of Period                                                     318,611              84,667                  37,302               18,141            458,721
    Uncollected Payments:
        Uncollected Payments from Federal Sources, Brought Forward, October 1 (-)            (151,085)                     -                      -             (8,986)           (160,071)
        Change in Uncollected Customer Payments from Federal Sources                          133,648                      -                      -              6,754            140,402
        Uncollected Customer Payments from Federal Sources                                     (17,437)                    -                      -             (2,232)               (19,669)
    Memorandum (non-add) Entries:
        Obligated balance, Start of Period                                          $         227,014     $       120,124      $           35,346     $         (4,788)   $       377,696
        Obligated balance, End of Period                                            $         301,174     $        84,667      $           37,302     $         15,909    $       439,052




Budgetary Authority and Outlays, Net:
    Budgetary Authority, Gross (discretionary and mandatory)                                 2,674,958            397,604                  10,307               48,491           3,131,360
    Less: Actual Offsetting Collections (discretionary and mandatory)                         170,015                 638                    514                55,245            226,412
    Change in Uncollected Customer Payments from Federal Sources                              133,648                      -                      -              6,754            140,402
        (discretionary and mandatory)
    Budget Authority, Net (discretionary and mandatory)                             $     2,638,591       $     396,966        $          9,793       $              -    $   3,045,350

    Outlays, Gross (discretionary and mandatory)                                    $        2,716,580    $       414,400      $            8,458     $         63,475    $      3,202,913
    Less: Actual Offsetting Collections (discretionary and mandatory)                         170,015                 638                    514                55,245            226,412
    Outlays, Net (discretionary and mandatory)                                               2,546,565            413,762                   7,944                8,230           2,976,501
    Agency Outlays, Net (discretionary and mandatory)                               $     2,546,565       $     413,762        $          7,944       $        8,230      $   2,976,501




United States Marshals Service
.


                                                                                        - 62 -
                                                                                          U.S. Department of Justice

                                                                                         United States Marshals Service

                                                                                Required Supplementary Information

                                                                            Combining Statement of Budgetary Resources

                                                                               Broken Down by Major Appropriation

                                                                            For the Fiscal Year Ended September 30, 2012

Dollars in Thousands                                                                                                                                                                                      2012



                                                                                                                                                                     Justice Prisoner and
                                                                                                                                                                     Alien Transportation
Budgetary Resources:                                                                            Salaries & Expense     Court Security             Construction              System              Total


        Unobligated Balance, Brought Forward, October 1                                         $           45,013     $         9,281        $             2,051    $            34,052    $           90,397


        Recoveries of Prior Year Unpaid Obligations                                                         40,651             11,585                        862                   1,522                54,620
        Other Changes in Unobligated Balance                                                                 (2,568)            (5,064)                          -                     -                 (7,632)
        Unobligated Balance from Prior Year Budget Authority, Net                                           83,096             15,802                       2,913                 35,574            137,385
        Appropriations (discretionary and mandatory)                                                      1,173,002           422,642                      15,000                      -           1,610,644
        Spending Authority from Offsetting Collections (discretionary and mandatory)                      1,481,021                  -                           -                57,593           1,538,614
Total Budgetary Resources                                                                       $      2,737,119       $    438,444           $          17,913      $          93,167      $   3,286,643

Status of Budgetary Resources:
        Obligations Incurred                                                                    $         2,690,482    $      425,327         $            16,983    $            51,892    $      3,184,684
        Unobligated Balance, End of Period
             Apportioned                                                                                    14,685               5,349                       687                  41,031                61,752
             Unapportioned                                                                                  31,952               7,768                       243                     244                40,207
        Total Unobligated Balance - End of Period                                                           46,637             13,117                        930                  41,275            101,959
Total Status of Budgetary Resources:                                                            $      2,737,119       $    438,444           $          17,913      $          93,167      $   3,286,643

Change in Obligated Balance:
        Unpaid Obligations
             Unpaid Obligations, Brought Forward, October 1                                     $          470,165     $      131,550         $            38,260    $             8,635    $       648,610
             Obligations Incurred                                                                         2,690,482           425,327                      16,983                 51,892           3,184,684
             Outlays, Gross (-)**                                                                        (2,741,897)          (425,168)                   (19,035)               (54,807)         (3,240,907)
             Recoveries of Prior Year Unpaid Obligations (-)**                                              (40,651)           (11,585)                     (862)                 (1,522)               (54,620)
             Unpaid Obligations, End of Period                                                             378,099            120,124                      35,346                  4,198            537,767
        Uncollected Payments
             Uncollected Payments from Federal Sources, Brought Forward, October 1 (-)                    (180,028)                  -                           -                (8,804)          (188,832)
             Change in Uncollected Customer Payments from Federal Sources                                   28,943                                                                  (182)               28,761
             Uncollected Customer Payments from Federal Sources                                           (151,085)                  -                           -                (8,986)          (160,071)
        Memorandum (non-add) Entries
             Obligated balance, Start of Period                                                 $          290,137     $      131,550         $            38,260    $              (169)   $       459,778
             Obligated balance, End of Period                                                   $          227,014     $      120,124         $            35,346    $            (4,788)   $       377,696
                                                                                                                                          -


Budgetary Authority and Outlays, Net:
        Budgetary Authority, Gross (discretionary and mandatory)                                          2,654,023           422,642                      15,000                 57,593           3,149,258
        Less Actual Offsetting Collections (discretionary and mandatory)                                  1,509,960                  -                           -                57,411           1,567,371
        Change in Uncollected Customer Payments from Federal Sources                                        28,943                   -                           -                  (182)               28,761
             (discretionary and mandatory)
        Anticipated Offsetting Collections (discretionary and mandatory)*                                                                                                                                     ­
        Budget Authority, Net (discretionary and mandatory)                                     $      1,173,006       $    422,642           $          15,000      $                 -    $   1,610,648


        Outlays, Gross (discretionary and mandatory)                                            $         2,741,897    $      425,168         $            19,035    $            54,807    $      3,240,907
        Less Actual Offsetting Collections (discretionary and mandatory)                                  1,509,960                  -                           -                57,411           1,567,371
        Outlays, Net (discretionary and mandatory)                                                        1,231,937           425,168                      19,035                 (2,604)          1,673,536
        Less Distributed Offsetting Receipts                                                                      -                  -                           -                     -                      ­
        Agency Outlays, Net (discretionary and mandatory)                                       $      1,231,937       $    425,168           $          19,035      $           (2,604)    $   1,673,536




United States Marshals Service
.



                                                                                             - 63 -
This page intentionally left blank.




              - 64 -
U.S. DEPARTMENT OF JUSTICE


UNITED STATES MARSHALS SERVICE



         OTHER INFORMATION
            (UNAUDITED)




               - 65 -
This page intentionally left blank.




              - 66 -
                                                U.S. Department of Justice

                                              United States Marshals Service

                                             Combined Schedule of Spending

                                      For the Fiscal Year Ended September 30, 2013


             Dollars in Thousands                                                     2013

             What Money is Available to Spend?

             Total Resources                                               $    3,322,796
             Less: Amount Available but Not Agreed to be Spent                    126,660
             Less: Amount Not Available to be Spent                                29,732
             Total Amounts Agreed to be Spent                              $   3,166,404




             How was the Money Spent?
             Personnel Compensation and Benefits
                                1100 Personnel Compensation                $      499,395
                                1200 Personnel Benefits                           238,596
             Other Program Related Expenses
                                2100 Travel & Transportation of Persons            14,242
                                2200 Transportation of Things                       2,226
                                2300 Rent, Communications, and Utilities          245,027
                                2400 Printing and Reproduction                        314
                                2500 Other Contractual Services                 2,024,376
                                2600 Supplies and Materials                        38,028
                                3100 Equipment                                     37,387
                                3200 Land and
                                            , Structures
                                                      ,                            65,546
                                4200 Insurance Claims and Indeminities              1,267
             Total Amounts Agreed to be Spent                              $   3,166,404




             Who did the Money go to?
             For Profit                                                    $    1,427,877
             Government                                                           997,299
             Employees                                                            737,991
             Other                                                                  3,237
             Total Amounts Agreed to be Spent                              $   3,166,404




United States Marshals Service


                                                   - 67 -
This page intentionally left blank.




              - 68 -
U.S. DEPARTMENT OF JUSTICE


UNITED STATES MARSHALS SERVICE



            APPENDIX




              - 69 -
This page intentionally left blank.




              - 70 -
                                                                         APPENDIX

                    OFFICE OF THE INSPECTOR GENERAL

                   ANALYSIS AND SUMMARY OF ACTIONS

                     NECESSARY TO CLOSE THE REPORT


       The Office of the Inspector General (OIG) provided a draft of the
Independent Auditors’ Report on Internal Control over Financial Reporting Based on
an Audit of Financial Statements Performed in Accordance with Government
Auditing Standards to the United States Marshals Service (USMS). The USMS’s
response is incorporated in the Independent Auditors’ Report on Internal Control
over Financial Reporting Based on an Audit of Financial Statements Performed in
Accordance with Government Auditing Standards of this final report. The following
provides the report’s recommendations, the status of the recommendations, the
OIG analysis of the response, and a summary of actions necessary to close the
report.

Recommendation:

1.	   Utilize resources at Headquarters to provide assistance to the District
      Offices that have a history of untimely completion of the quarterly
      open obligation certification.

      Resolved. The USMS concurred with the recommendation. The USMS stated
      in its response that some of the delays in completing the quarterly open
      obligation certifications were related to the implementation of a new financial
      system, and that the USMS will continue to analyze untimely submissions of
      the quarterly open obligation certifications for trends or other concerns, and
      provide assistance as necessary.

      This recommendation can be closed when subsequent annual financial
      statement audit testing verifies that the USMS District Offices have timely
      completed the quarterly open obligation certifications.

2.	   Reinforce policies and procedures and provide training to individuals
      responsible for recording obligations, non-payroll expenses, accruals,
      and deobligations within the financial management systems.

      Resolved. The USMS concurred with the recommendation. The USMS stated
      in its response that it will continue efforts to reinforce policies and procedures
      through training with the individuals responsible for financial management in
      the agency.

      This recommendation can be closed when subsequent annual financial
      statement audit testing verifies that obligations, non-payroll expenses,
      accruals, and deobligations are properly recorded within the financial
      management systems.




                                        - 71 -
                                                                      APPENDIX


3.	   Develop and implement policies around MIC (Itemized Receipt)
      accrual transactions that require management approval and require
      that Headquarters review significant obligations in order to prevent
      the District Offices and Program Offices from incorrectly recording
      the obligation, expense, and necessary accruals.

      Resolved. The USMS concurred with the recommendation. The USMS stated
      in its response that it believes the findings specific to MIC accrual
      transactions were related to the implementation of a new financial
      management system, and that management will continue to review options
      for making improvements to the financial management process as well as
      communicating the importance of proper financial management to District
      and Program Offices.

      This recommendation can be closed when subsequent annual financial
      statement audit testing verifies that the USMS has developed and
      implemented policies around MIC (itemized receipt) accrual transactions that
      require management approval and require Headquarters to review significant
      obligations.

4.	   Continue efforts to improve the reporting of funding balances at
      District Offices and Program Offices to enable District Offices and
      other decision makers to record expense, undelivered order, and
      accrual transactions in a timely and accurate manner.

      Resolved. The USMS concurred with the recommendation. The USMS stated
      in its response that the USMS financial management will continue to improve
      the information available to District and Program Offices.

      This recommendation can be closed when subsequent annual financial
      statement audit testing verifies that the USMS has improved the reporting of
      funding balances at District Offices and Program Offices to enable District
      Offices and other decision makers to record expense, undelivered order, and
      accrual transactions in a timely and accurate manner.

5.	   Develop and implement formal policies and procedures at an
      appropriate level of precision to prevent or detect and correct
      significant errors in financial reporting.

      Resolved. The USMS concurred with the recommendation. The USMS stated
      in its response that additional oversight and edit checks will be put in place
      to ensure a higher level of precision related to financial reporting.

      This recommendation can be closed when subsequent annual financial
      statement audit testing verifies that the USMS has implemented policies and
      procedures at an appropriate level of precision to prevent or detect and
      correct significant errors in financial reporting.




                                      - 72 -
                                                                     APPENDIX


6.	   Restrict users from being able to both prepare and review journal
      entries created in the general ledger.

      Resolved. The USMS concurred with the recommendation.

      This recommendation can be closed when subsequent annual financial
      statement audit testing verifies that the USMS has restricted users from
      being able to both prepare and review journal entries created in the general
      ledger.




                                      - 73 -
